<html>
<title> - CLIMATE SCIENCE: EMPOWERING OUR RESPONSE TO CLIMATE CHANGE</title>
<body><pre>[Senate Hearing 111-366]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-366

                    CLIMATE SCIENCE: EMPOWERING OUR 
                       RESPONSE TO CLIMATE CHANGE

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 12, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
52-159 PDF                WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 JOHNNY ISAKSON, Georgia
CLAIRE McCASKILL, Missouri           DAVID VITTER, Louisiana
AMY KLOBUCHAR, Minnesota             SAM BROWNBACK, Kansas
TOM UDALL, New Mexico                MEL MARTINEZ, Florida
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Chief of Staff
                   James Reid, Deputy Chief of Staff
                   Bruce H. Andrews, General Counsel
   Christine D. Kurth, Republican Staff Director and General Counsel
                  Paul Nagle, Republican Chief Counsel














                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 12, 2009...................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     4
    Prepared statement...........................................     4
Statement of Senator Lautenberg..................................     5
Statement of Senator Begich......................................    35
Statement of Senator Kerry.......................................    37
Statement of Senator Klobuchar...................................    40
Statement of Senator Thune.......................................    44
Statement of Senator Udall.......................................    46
Statement of Senator Warner......................................    47
Statement of Senator Cantwell....................................    49

                               Witnesses

Dr. Tim Killeen, Assistant Director, Geosciences Division, 
  National Science Foundation....................................     5
    Prepared statement...........................................     8
Katharine Jacobs, Executive Director, Arizona Water Institute....    12
    Prepared statement...........................................    14
Sean Dilweg, Commissioner of Insurance, State of Wisconsin on 
  Behalf of the National Association of Insurance Commissioners..    18
    Prepared statement...........................................    20
Frank Alix, CEO, Powerspan Corp..................................    23
    Prepared statement...........................................    25

                                Appendix

Response to written questions submitted to Dr. Tim Killeen by:
    Hon. Kay Bailey Hutchison....................................    59
    Hon. Maria Cantwell..........................................    61
Response to written questions submitted to Katharine Jacobs by:
    Hon. Maria Cantwell..........................................    63
Response to written questions submitted to Frank Alix by:
    Hon. Mark Warner.............................................    64

 
       CLIMATE SCIENCE: EMPOWERING OUR RESPONSE TO CLIMATE CHANGE

                              ----------                              


                        THURSDAY, MARCH 12, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:10 a.m. in 
room SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. The hearing will come to order.
    I thank our witnesses for joining us today. You've come 
from various places. From across the country, am I right? We're 
here to discuss climate change, which is a very big part of the 
work of the Commerce Committee, which a lot of people don't 
know, but they're going to.
    There are some in this room who believe that climate change 
is for real and that I think it's for real. I come from a coal 
state. Not everybody likes to hear what I have to say about it, 
but I love my grandchildren. One of the questions I'm going to 
ask some of you is, When do you think the irreversibility 
factor becomes impossible to overcome?
    There are also some that are a little less convinced of 
that. Not necessarily in this room, but certainly across the 
country and in some energy circles. For me, I believe the 
science is overwhelming. I think science determines 
everything--like Sir Isaac Newton said, ``Follow the truth 
wherever it takes you,'' and you never move your nose from that 
direction. The danger of getting this wrong is very great, and 
therefore, we've got to act.
    This Committee has a terrific jurisdiction on climate 
change, and I want people to be very clear about that, 
everything from ocean policy to science and technology policy, 
estuaries, transportation, and consumer affairs, just an 
enormous number of things. Each of the hearings we're going to 
have on climate change are sort of going to build upon the 
previous one. So, this is the base.
    Today's hearing will be dominated by an area under the 
Committee's jurisdiction which people don't pay enough 
attention to, and that is something called, ``science.'' The 
quality of our Nation's research in science is the single most 
important factor in meeting the challenges of climate change, 
it's the single most important factor in acting intelligently. 
If we're going to have a strong climate change policy, it 
requires strong climate science and our reaction to that 
science. For science to be effective, it must be moved outside 
the laboratory so that the stakeholders can make use of it, so 
it's not just the knowledge itself, it's, How do you use the 
knowledge? Is it ready to be used?
    The purpose of the hearing today is first, to provide an 
overview of the current state of climate change science, and 
second, to examine how science informs our response to climate 
change and what we do about its adaption and mitigation 
strategies, and third, highlight challenges and knowledge gaps. 
What don't we know? What do we need to know? What do we know 
about parts of science, but not how to make it adaptable to the 
stakeholders, to the American people?
    So, again, I think the time for arguing whether carbon 
emissions is a factor which affects the health of the Earth or 
whether our sea level is rising from global warming is, and 
must be, over. And until it is over, there will be a small drag 
on our momentum, but I think our momentum in the Congress is 
very strong on this.
    We must address solutions now. We have to tackle the 
challenges very directly and intelligently. Those are two very 
different matters.
    Today's hearing is about taking science out of the 
laboratory and into our communities in order to help people see 
how climate variability and climate change are impacting their 
lives every single day, whether they know it or not. From clean 
air and water to actually impacting our economy.
    Climate affects every aspect of our economy. Over one-third 
of our Nation's gross domestic product is sensitive to weather 
and climate. Weather is a large part of what we do. And that 
fits very much into the science of prediction and all the rest 
of it. Where you build levees and where you do not, where will 
the sands increase, crops cease to grow? Science determines the 
types of crops that we grow, where we grow them; it affects 
where we live, where we build our roads, where we build our 
homes and our schools; and it determines the amount of energy 
that we need. And it affects our health.
    Make no mistake, climate change is affecting our world in 
ways we are only beginning to understand. We have to let go of 
the ``it isn't happening, because I can't see it.'' Well, 
actually you can see it. You just have to look up into the 
skies. But, we have to let go of that and understand that it's 
for real, before we can really move ahead effectively.
    Climate change is affecting our world in ways that are 
dangerous. Warmer temperatures bring longer growing seasons, in 
some regions increasing agriculture production. We've seen 
severe storms that threaten coastal ecosystems. People think 
severe storms are acts of God or, you know, happenstance, or 
something that'll happen this 5 years, but not the next 5 
years. Wrong. It's all a part of climate change.
    Public health crises are very much involved in all of this, 
rapidly evolving through increased infectious and respiratory 
illnesses and weather-related mortality. The list goes on.
    The economic consequences of climate change are equally 
grave. These issues are particularly important because of the 
serious challenges facing our economy. I know many Americans 
believe that addressing climate change may have a negative 
impact on jobs, so let's consider that for a moment. However, 
the cost of inaction will be much, much worse than the economic 
impact of action. More importantly, action on climate change 
will produce new jobs and make our economy stronger.
    In this crucial time in our Nation's history, dangerous 
time, the decisions we make now can and will set the course for 
many generations to come. We have the ability to improve our 
economy and the climate at the same time.
    Through the decisions we make today, we can resolve to 
transition to a low-carbon economy, and increase sound climate 
science. That will drive effective decisionmaking, enhance 
stakeholder-driven climate science that directly addresses 
public needs and concerns and improve our ability to mitigate 
response and adapt to change. Anyway, the time to act is now.
    Our Ranking Member, Kay Bailey--Senator Kay Bailey 
Hutchison, will arrive shortly, and when she does, I will ask 
her to speak, obviously. But, in the meantime, I look forward 
to hearing from our witnesses. They're going to talk about how 
we can improve climate science programs within the Federal 
Government to make them more stakeholder-driven and more 
responsive to the needs of society. I want to say a word about 
them.
    Dr. Tim Killeen, with the National Science Foundation, will 
provide us with an update of the current state of climate 
change science, including research and data needs, gaps, what 
we don't know, and challenges to addressing those gaps and 
needs.
    Dr. Kathy Jacobs, Executive Director of the Arizona Water 
Institute, works to connect science and decisionmaking--makes 
you a star--and engage stockholders to use climate change and 
climate variability information for water management, which is 
her work. She's also Chair of the National Academy of Sciences 
Panel on Adapting to Impacts of Climate Change.
    Commissioner Sean Dilweg is the Wisconsin Commissioner of 
Insurance and former head of the National Association of 
Insurance Commissioners Climate Change Task Force. This is an 
industry beset with a lot to worry about. The insurance 
industry is one of the greatest financial sectors in the United 
States, and climate change will impact nearly every single 
segment of what they do, including health and life insurance, 
property damage, and on and on.
    Dr. Jacobs and Commissioner Dilweg will help us understand 
the tangible link between science and its use. Reducing and 
stabilizing the concentration of carbon dioxide in the 
atmosphere will require a broad portfolio of solutions. A lot 
of people think that can't happen. Well, one of our witnesses, 
Mr. Alix, disagrees with that, and can prove it.
    Mitigation strategies, such as carbon capture and storage, 
or sequestration, is important in decoupling climate-change-
altering emissions from continued coal use. Now, this isn't a 
coal job, Frank. I don't want you to worry. But, you know, 
we're 70 percent now, and the question is, How do we get down 
to as low as we can? And you're going to have some very 
interesting things to tell us.
    And there's the whole question of, How do you close the 
gap? If it's a big pie, and you've got renewables, right now at 
about 7 percent; you want to use atomic energy, that's another 
20 percent, if you want to do that; you've got weatherization, 
you've got all kinds of things. But, basically, you can't 
escape coal. It's the source for 51 percent of our electricity. 
And, in fact, in New Hampshire several years ago, it was 
literally 51 percent. West Virginia Coal was 51 percent of 
their electricity energy.
    So, mitigation strategies such as carbon capture and 
storage are important in decoupling all of this with respect to 
coal use, creating a bridge to a low-carbon economy. Is that 
possible? Well, our fourth witness, Frank Alix, CEO of 
Powerspan Corp., will discuss how carbon capture and storage 
can help us bridge that in a very dramatic way.
    So, I will now call upon our first witness, Dr. Killeen.
    And here she is.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Mr. Chairman, I do apologize. I had an 
unusually large constituent coffee this morning, and so, I am 
late, and I will not take any more of your time, because I know 
I'm late, but just to say that this is a very important issue 
to me. I think we need to do more in this area, and that's why 
I'm very appreciative that the Chairman has called this hearing 
so that we can move forward on really addressing the weather 
issues more clearly, and the scientific base for that. We need 
to know more. And I appreciate your calling this hearing, and I 
will certainly ask questions, but I don't want to take any more 
time right now.
    Thank you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas
    Thank you, Senator Rockefeller. I am pleased to join you in 
conducting this hearing on climate science. This Committee has a long 
history of advancing and promoting laws that are based on sound 
science.
    Our Nation spends nearly $5 billion per year on climate change 
activities. Given the current fiscal challenges to our country, it is 
important to ensure that these funds are allocated wisely. While 
conducting this research is important, it is equally important that 
this research is presented in a form that is useful to stakeholders and 
decisionmakers.
    Accurate climate and weather science can have substantial benefits 
for both the private sector and local communities. It can help local 
communities plan future development and protect against natural 
disasters. As my home state of Texas continues to rebuild after 
Hurricane Ike, climate science can help us to make better decisions to 
prepare against future hurricanes.
    Climate and weather science can also help us to develop new 
renewable energy technologies. Last Congress I introduced the Creating 
Renewable Energy through Science and Technology Act in order to promote 
renewable energy research and development in the areas of wind, wave, 
solar, geothermal, and biofuels production. Not only is a strong 
science program essential to developing these technologies the private 
sector needs a strong understanding of the environment to deploy these 
technologies efficiently. Understanding weather patterns is crucial 
when deploying wind and solar energy technology. Understanding ocean 
currents is necessary for making decisions of where to site wave and 
tidal energy technologies. We must use sound science to encourage 
innovation, and cost effective clean energy technologies that can help 
America reduce greenhouse gases and reduce our dependence on foreign 
oil.
    We must also increase our efforts in weather modification research. 
In 2003, the National Research Council recommended the establishment of 
a coordinated Federal program of atmospheric research on cloud 
dynamics, cloud modeling, and cloud seeding, which would focus on 
fundamental research questions that currently impede progress and 
understanding of intentional and inadvertent weather modification. In 
order to establish a coordinated Federal weather modification program I 
introduced legislation in both the 109th and 110th Congresses. This 
Congress I plan to introduce the Weather Mitigation Research and 
Development Policy Authorization Act of 2009, which I hope will lead to 
expanded weather modification research at both the Federal and local 
level. I urge my colleagues to support this legislation as it comes 
before this Committee.
    The National Science Foundation currently spend about $7 million 
per year on weather modification research but this pales in comparison 
to the economic costs of severe weather events. While we will not be 
able to stop Mother Nature entirely, we may be able alter her course, 
changing the weather in small, yet significant ways. Weather 
modification programs in Texas and other states are trying to use the 
latest technology to reduce the impacts of droughts by extracting more 
precipitation out of clouds. Many political subdivisions, like water 
conservation districts and county commissions, have embraced the 
technology of rain enhancement as one element of long-term, water 
management strategy. Research in weather modification will not only 
help us to mitigate severe weather events but will also help us to 
understand how weather impacts our Nation.
    So as we look to research what the weather impacts of climate 
change will be in the future, we cannot sit idly by and wait. We must 
also conduct research into what and how we may be able to modify the 
weather of that time. I know as well as anyone that weather 
modification is a long-term investment, but given what's at stake, we 
have no other choice but to make the investment.
    Our Nation needs to invest more in basic scientific research, math 
and education. Many of our greatest challenges, such as understanding 
climate change, weather patterns, and developing additional sources of 
domestic energy, will require significant additional funding and effort 
to answer some of the unresolved questions that have plagued 
policymakers.
    I look forward to hearing the testimony of the witnesses. Thank 
you.

    The Chairman. Thank you.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                 U.S. SENATOR FROM NEW JERSERY

    Senator Lautenberg. Mr. Chairman, I would make a request. 
And I so much appreciate the fact that you are holding this 
hearing concerning the critical question that faces us. And I 
wonder whether it's possible for those of us who have been here 
now--it's 10:20--to make a short statement, not more than 5 
minutes, before the witnesses start. I'm very interested in 
what they have to say. These are an excellent group of 
witnesses. But, I think, in fairness, we might be able to get 
our statements out and come back to them, at the appropriate 
time, to be able to ask the questions.
    The Chairman. Senator Lautenberg, at the beginning of our 
organizing, I made it very clear, as did the Ranking Member, 
that if we had a lot of people here, it would get very 
difficult and time-consuming to hear full statements, and 
people want to hear what the witnesses have to say. You can 
work your statement into your questions, but we agreed that the 
two of us would speak and then we would go directly to the 
witnesses, and then we would go directly to questions.
    So, Dr. Killeen, I call on you.

 STATEMENT OF DR. TIM KILLEEN, ASSISTANT DIRECTOR, GEOSCIENCES 
             DIVISION, NATIONAL SCIENCE FOUNDATION

    Dr. Killeen. Thank you very much, Mr. Chairman. Is this 
working? Chairman Rockefeller and Ranking Member Hutchison and 
Members of the Committee, I'm honored to speak to you--with you 
today on the state of climate change science. And I want to 
particularly thank you for your opening remarks on the part of 
the scientific community, and the leadership that you're 
demonstrating here and by the mechanism of this Committee.
    My name is Tim Killeen. I'm the National Science 
Foundation's Assistant Director for the Geosciences. I'm also 
the former Director of the National Center for Atmospheric 
Research and the past President of the American Geophysical 
Union, which is the world's largest organization of 
geoscientists. My academic background includes teaching and 
research in atmospheric, space, and earth-system sciences.
    Today's topic is of tremendous importance to the 
understanding of our planet and to our stewardship of it. And 
I'd like to make three simple, but fundamental, points in my 
testimony:
    First, the science of climate change has advanced to where 
we now understand, quantitatively, the basic drivers of both 
the observed natural and manmade changes, which is a supreme 
accomplishment of modern science and the scientific method.
    Number two, we are now poised to take that knowledge and 
expand it in order to develop the tools, precisely those that 
you were alluding to, Mr. Chairman, that policymakers require 
for future effective decisionmaking, predications of future 
change at the temporal and spatial scales of relevance to 
people's lives.
    Third point is that the U.S. scientific and engineering 
community can and must retain world leadership, both 
intellectual and technological, and continue to push scientific 
frontiers that will allow us to predict climate and weather on 
scales relevant to human activities and endeavors.
    So, I'd like to begin with some of the things that we do 
know, representing the fruits of research by the hundreds of 
climate scientists, many of whom are from the U.S., many of 
whom were involved in the recent Intergovernmental Panel on 
Climate Change, or the IPCC, the fourth assessment, as authors 
and reviewers. Their famous phrase from the most recent 
assessment summarizes it well, ``Warming of the climate system 
is unequivocal, as is now evident from observations in global 
average air and ocean temperatures, widespread melting of snow 
and ice, and rising global average sea level.''
    So, we know many things. We know that the Earth is 
warming--it's warmed, over our whole lives, everybody in this 
room; the strength and pace of this warming is unprecedented--
this warming is linked to human activities, especially the 
release of carbon dioxide and other greenhouse gases, but also 
deforestation; that significant continued warming is 
unavoidable, and we will be adapting to that; and that changing 
climates have already significantly impacted people, 
infrastructure, and ecosystems across the globe; and that these 
impacts will increase in extent and severity.
    The surplus heat energy in the oceans means that 
atmospheric warming will continue into the future. The rate of 
warming and the possibility for stabilization of the climate 
system will depend on human choices over the next years and 
decades.
    The investigation of global warming is a story of 
scientific accomplishment. We're proud of that. It was forecast 
well, back in the previous century. Current models capture the 
evolution and global patterns of recent climate change 
remarkably well over the last century. And projections for the 
long-term centennial climate are credible. Our observing 
systems, though incomplete, monitor changes in the global 
environment with unprecedented accuracy and precision.
    These research efforts are interdisciplinary, 
intergovernmental, and international. Scientific understanding 
of global climate change is growing rapidly. The knowledge from 
the fourth assessment from the IPCC is invaluable, but it's 
based on research that was conducted more than 5 years ago. The 
IPCC's estimates of the pace and severity of global change were 
probably conservative. Global emissions of greenhouse gases and 
their consequences are increasing faster than had been 
predicted or projected at that time. And we recognize now that 
natural systems have thresholds that could result in rapid 
changes, that identifying and understanding those thresholds 
remains a scientific challenge.
    Today, we know that the Earth functions as a system, 
affecting ice, carbon, rainfall, nitrogen cycles, ecosystem 
responses, and the likelihood of extreme weather events. But, 
we still lack the full detailed predictive understanding of 
that system and its many rich interactions. The science of 
climate change is not over, it's just getting to a new 
threshold.
    In my written testimony, I've provided various examples of 
specific current research challenges, because you asked for 
gaps in our knowledge, and I won't reiterate them in my oral 
remarks, but we recognize that being able to provide 
decisionmakers with useful predictions means that public 
policy, economic development, and human behavior must be taken 
into account, as well as the biological and physical sciences. 
We have entered a new, exciting, but very challenging, 
scientific world, where traditional national science--natural 
science, social science, and policy sciences must intersect.
    Society must find a way to deal with the impacts of 
continued warming, but a rational basis for mitigation and 
adaptation choices in assessing their potential consequences 
must be established and must be informed by the very best 
science and engineering we can muster. And this knowledge must 
continue to be improved over time. And, Mr. Chairman, you made 
that very point in your opening remarks.
    We've reached a point where the required detailed 
predictions are within reach because of the scientific advances 
over the past few years, but scientists must also find new ways 
to convey to nonspecialists the uncertainties of their 
predictions and to develop tools that allow decisionmakers to 
incorporate relevant information into the decision process.
    The predictive knowledge base to inform sound and effective 
policy--and this is my personal opinion--is perhaps the most 
important gift science will ever yield to humanity.
    The U.S. leads the world in research in the natural and 
social sciences and engineering disciplines today. The 
significance of the climate problem demands that the U.S. take 
a lead in its solution. And the U.S. scientific community is 
poised to take up that challenge.
    Mr. Chairman, I appreciate the opportunity to appear before 
the Committee and speak with you on this important topic. And I 
would be pleased to answer any questions that you may have, to 
the best of my ability.
    [The prepared statement of Dr. Killeen follows:]

      Prepared Statement of Dr. Tim Killeen, Assistant Director, 
           Geosciences Division, National Science Foundation
    Chairman Rockefeller, Ranking Member Hutchison, and Members of the 
Committee, I am honored to speak with you today on the state of climate 
change science.
    My name is Tim Killeen, and I am the National Science Foundation's 
Assistant Director for Geosciences. I am also the former Director of 
the National Center for Atmospheric Research, and the Past President of 
the American Geophysical Union (AGU). My academic background includes a 
professorship at the University of Michigan, where I taught and 
conducted research programs in atmospheric, space, and Earth system 
sciences for many years.
    The topic of this hearing is of tremendous importance to our 
understanding of the planet on which we live and to the stewardship of 
our world. I wish to make three simple but fundamental points: (1) the 
science of Earth's climate and climate change has advanced to the point 
where we now understand the basic drivers of the natural and man-made 
changes in the Earth's climate system--this is a supreme accomplishment 
of modern science and the scientific method; (2) we stand poised to 
expand that understanding and to begin to develop the detailed 
knowledge policymakers require for effective decisions that will surely 
shape our world for generations to come; and (3) the U.S. scientific 
and engineering, community can and must retain world leadership through 
our intellectual and technological capabilities to continuously improve 
predictions of climate changes on the temporal and spatial scales 
relevant to human endeavors.
What We Know
    The many hundreds of climate scientists involved in the 
Intergovernmental Panel on Climate Change (IPCC) summarized the 
situation in their famous phrase: ``Global warming is unequivocal'' 
(IPCC AR4). We know that:

  <bullet> the Earth is warming (more than 1 degree Celsius since 
        1860).

  <bullet> the strength and pace of this warming is unprecedented in at 
        least the past 1,000 years.

  <bullet> this warming is linked to human activities, especially the 
        release of carbon dioxide and other ``greenhouse gases.''

  <bullet> significant continued warming is unavoidable.

  <bullet> changing climates have already significantly impacted 
        people, infrastructure, and ecosystems throughout the globe, 
        and these impacts will increase in extent and severity as 
        climate changes continue.

    While global warming represents a profound challenge to Earth's 
people, its investigation is a story of scientific accomplishment. 
Global warming was forecast by simple theories and models well back 
into the previous century. Our current models capture the evolution and 
global patterns of climate change over the past century remarkably 
well, and they make credible and reproducible projections for the long-
term climate outcomes of greenhouse warming. At the same time our 
observing systems, although incomplete, monitor changes in the global 
environment with unprecedented accuracy and precision.
    Our knowledge is expanding. Driven by intense research efforts that 
are interdisciplinary, inter-governmental, and international, 
scientific understanding of global climate change is growing rapidly. 
Recent advances build on the understanding contained in the IPCC 4th 
Assessment (AR4, 2007), which is based on research conducted more than 
5 years ago. We now know more about how the Earth functions as a 
system--the role of ice, carbon, rainfall and nitrogen cycles; 
ecosystem responses; the likelihood of extreme event occurrence (e.g., 
wildfires and heat waves) and more. A body of recent research compiled 
in the U.S. Climate Change Science Program's Synthesis and Assessment 
Products (SAP) has been very helpful in expanding our regional 
knowledge in these areas.
    Because of the accumulation of surplus heat energy in the ocean, 
atmospheric warming will continue long into the future, but the rate of 
this warming and any possibility for ultimate stabilization of this 
system will be dependent on how humans adjust concentrations of 
atmospheric greenhouse gases over the next years and decades.
What We Need to Know
    As the pace of global change has accelerated, so has the demand 
from the public, business leaders, resource managers, and 
decisionmakers for climate predictions, not just a century ahead but 
over the next five, ten, or fifteen years, and not just globally, but 
regionally and locally. Led by U.S. researchers, the scientific 
enterprise can meet this demand, but must first fill fundamental gaps 
in our understanding of the Earth system and build new technologies for 
Earth-system prediction. Traditional research in fields like 
meteorology, oceanography, geology, glaciology, biology, and the social 
sciences must be linked to construct an understanding of the Earth-
system including the impact of, and on, its human inhabitants. 
Underpinning all of this is the need for a comprehensive, high 
accuracy, high-spatial and high temporal resolution, stable, 
continuous, sustained global climate observing system that includes 
physical, biological, and social observations not only to monitor 
climate change but for use in research and modeling.
    Results of interdisciplinary research efforts must then be used in 
developing computational models with verifiable predictive skill. These 
next-generation predictive models will need to be run on our most 
powerful computers that can store, display, and analyze, and similarly 
handle the ever-growing volumes of observational data used to further 
refine the models. New computational methods are needed to make the 
best possible use of our computing power. Finally, new knowledge and 
techniques in mathematics, statistics, information sciences and cyber-
infrastructure are crucial in converting model results to quantifiable 
statements about the various impacts and risks posed by climate change.
What Are Some of the Leading Scientific Challenges?
Regional Climate Change
    While our understanding of average global climate change and the 
large-scale factors driving it are fairly well understood, we have yet 
to develop the capability to predict accurately how climate will change 
on a regional basis. Some parts of the globe, such as the Antarctic 
Peninsula, are warming much faster than others and the factors driving 
these local variations are not well understood. A key challenge to the 
research community is to identify and understand these smaller scale 
factors and to incorporate them into models that will predict reliably 
how communities and specific parts of the globe will be impacted by 
climate change.
Ice Sheet Changes and Rising Sea Levels
    Rising sea levels are a major consequence of global warming. As the 
oceans warm, their waters expand. This effect is comparatively well 
understood and predictable. What is less understood and less 
predictable is the behavior of ice sheets and the possibility of great 
and rapid rises in sea level due to melting ice caps. The ice sheets of 
Greenland and Antarctica hold vast volumes of water. Because of 
uncertainties surrounding the behavior of ice sheets, their impact on 
sea level rise was not adequately addressed in the last IPCC 
assessment. Recent observations including increasing areas of summer 
melt on the surface of the Greenland icecap and space-based 
observations of decreasing ice-sheet mass suggest the potential for a 
0.6-1.9 feet rise in sea level this century (SAP 3.4). Low lying 
regions, vital coastal wetlands and, in the developing world, densely 
populated agricultural regions could be inundated as a result of rapid 
sea level rise.
    In the U.S. alone, protecting coastal infrastructure against such a 
rise could require continuing investments of billions of dollars. At 
present, however, we cannot make reliable statements on the likelihood 
of a disastrous rise in sea level because of our limited knowledge of 
how ice sheets work. Recent research suggests that some previously 
unknown or neglected processes, such as the lubrication of ice flow by 
surface meltwater which reaches the base of the ice sheet through 
crevasses, are important, but we are not yet at the point of 
incorporating these effects into predictive models (SAP 3.4). Other 
recent results suggest the importance of increasing ocean temperatures 
on the retreat of Greenland outlet glaciers and the diminishment of the 
ice sheet. Finally, the impact of sea level rise on coastal ecosystem 
may be significant and likely will have far reaching consequences to 
inland-oceanic processes, including freshwater quality and 
availability.
Water Scarcity
    Three decades ago, climate modeling pioneer, Sukyuro Manabe, 
predicted that global warming would lead to reductions in rainfall in 
some of the Earth's most productive agricultural regions. The increased 
frequency of drought in places such as the southwest U.S. suggests that 
this trend may be underway (SAP 3.4). While models generally agree that 
the planet's subtropical dry zones are expanding, there is great 
disagreement among them in regard to the pace and severity. Within the 
tropics, the uncertainty is greater. For example, there is nearly 
perfect disagreement among models as to whether the Sahel region of 
Africa will become wetter or drier in this century. In the monsoon 
regions of South Asia a layer of haze, air pollution from industry and 
household fires, causes more sunlight to be absorbed within the 
atmosphere and less at Earth's surface. Some models predict that this 
change could result in a weakening of the Asian monsoon and more 
frequent failures of monsoon rains, but once again, the pace and 
strength of this effect is highly uncertain.
    While our current models can address the global scale, they have 
not yet been fully adapted to regional and local scales. The water used 
by people, however, comes from local sources (e.g., wells, lakes and 
rivers recharged by rain and snow). At this stage, our models provide 
little information on these scales, which are small when viewed 
globally but critically important to a farmer or a water manager. 
Models that can provide information on the scales that users need are 
coming, but they are still in their infancy.
Ocean Acidification
    Roughly one third of the carbon dioxide humankind has released from 
burning fossil fuels has gone into Earth's oceans (IPCC AR4). While 
ocean uptake has slowed the pace of global warming, it has been harmful 
to living things in the ocean. When carbon dioxide dissolves in the 
ocean, it makes seawater more acidic. Observations verify that the 
ocean has become more acidic, and, as this trend continues, it will 
make the ocean environment less and less hospitable for many key 
organisms, especially those that build hard shells, such as corals. 
While the basic chemistry of this problem is well understood, there are 
many questions we cannot yet answer: How will ocean ecosystems respond 
to increased acidity? How does ocean circulation, and its potential 
changes in a changing climate, affect how much carbon dioxide is 
absorbed and how rapidly the ocean acidifies? What are the implications 
of ocean acidification on marine ecology and the sustainability of 
fisheries and how might it affect the capacity of the ocean to continue 
to absorb carbon-dioxide? Ocean acidification is but one example of how 
questions about climate change extend beyond traditional climate 
science into other parts of the Earth system. In this case, a complete 
and coupled understanding of marine ecology along with climate physics 
is needed.
Methane Gas
    Even when we look to the past, we are confronted by questions about 
the interrelationships between greenhouse gases and other environmental 
phenomena. For example, from ice cores drilled in Greenland and 
Antarctica, we know that in Earth's recent geologic past (hundreds of 
thousands of years) the concentrations of two greenhouse gases, carbon 
dioxide and methane, have varied nearly in lockstep with Earth's 
temperature (IPCC AR4). The changes in greenhouse gases must have 
played a significant role in the temperature changes, while, at the 
same time, and by mechanisms we still do not fully understand, changes 
in temperature caused changes in levels of greenhouse gases. We do not 
know if the processes that caused carbon dioxide and methane to change 
naturally in the past could still function today in a warmer climate. 
If they do, the implications for global warming are profound, as they 
would function as a positive feedback loop, increasing the rate of 
global warming. Great quantities of methane are sequestered in Arctic 
permafrost. This methane may be released to the atmosphere as Earth 
warms and the permafrost melts, but we do not know how much or how fast 
(SAP 3.4).
Extreme Events
    Researchers have already observed that an increasing portion of the 
rainfall comes in intense events. Two general implications of this 
trend are that the risk of flooding is increasing and that the fraction 
of rainfall that runs off may be greater. Recent modeling results 
suggest that as the Earth warms severe local storms and the damages 
from flash floods and high winds will increase (SAP 3.3). Further, the 
time between rainstorms may increase (SAP 3.3), which could lead to 
greater fire risk and water-stress to crops. Currently, our ability to 
make quantitative and precise statements about these risks that would 
be useful to emergency planners, farmers, and flood-control engineers 
is limited. Once again, the limitation comes from the scales of our 
models. The present generation of global climate models is far from 
being able to represent a locally severe thunderstorm or the time 
between storms.
Biodiversity and Ecosystem Function
    The Earth's climate and related life support systems are changing 
today at highly accelerated rates that are markedly different from 
those experienced by living systems in the recent geological history. 
The processes associated with climate change, as well as the mechanisms 
available to mitigate it, are largely biological--every part of the 
Earth is affected by the seemingly endless ability of living organisms 
to transform the world around them. The relationship between the 
Earth's ability to function as a set of interconnected ecosystems and 
the biodiversity within and among those interacting systems is an area 
of incomplete knowledge and critical importance. Research that builds a 
mechanistic understanding of carbon, nutrient and water cycles and the 
connections with living systems; that connects carbon and nutrient 
cycles to land use changes; and that identifies likely continental 
sinks of CO<INF>2</INF> is necessary to fill gaps in the climate change 
picture and directly relevant to human well being. Finally, achieving 
an understanding of the linkages between the biological and physical 
Earth systems and social systems is needed. Maintaining a healthy 
planetary ecosystem depends on both the maintenance of the Earth's 
biodiversity and its ability to respond to changing conditions.
Human Health
    In the summer of 1995 a heat wave in Chicago caused 521 deaths; the 
European heat wave of 2003 killed 35,000 people. Careful statistical 
and modeling studies indicate that the European heat wave was probably 
related to global warming (IPCC AR4). As the global temperature rises, 
the risk of severe heat waves is expected to increase. Yet we are 
limited in our ability to predict future heat waves and their impacts 
on people. Our models are not yet able to represent the complex urban 
environment where heat waves are most severe. Further, the impacts of 
heat waves depend on the vulnerability of urban populations and how 
they and community leaders respond when the thermometer spikes.
    Heat waves are but one example of how global climate change can 
influence human health. Others include the spread of disease agents and 
vectors into new areas, such as from tropical to temperate regions and 
to higher latitudes and altitudes. Other examples include key findings 
from SAP 4.6 which include: (1) Hurricanes, extreme precipitation 
resulting in floods, and wildfires also have the potential to affect 
public health through direct and indirect health risks; (2) The impacts 
of higher temperatures in urban areas and likely associated increases 
in tropospheric ozone concentrations can contribute to or exacerbate 
cardiovascular and pulmonary illness if current regulatory standards 
are not attained; and (3) There will likely be an increase in the 
spread of several food and water-borne pathogens among susceptible 
populations depending on the pathogens' survival, persistence, habitat 
range and transmission under changing climate and environmental 
conditions.
    In all of these cases, a useful estimate of the risk depends on 
more than predicting changes in the physical climate, even if we can do 
so at the small scales of a city neighborhood. Biology, ecology, and 
human physiology come into play, and, even more importantly, human 
responses. We must better understand the human and social dimensions of 
climate change if we are to address the wide range of climate change 
problems, but the scientific study of these human factors is in early 
stages.
Smart Adaptation and Smart Mitigation
    It is imperative that society adapts to the impacts of continued 
warming of the climate. The extent to which we will need to adapt will 
depend substantially on future emissions and the success of mitigative 
efforts. Anticipating the magnitude of potential impacts is complicated 
by other factors such as population growth, urbanization, the 
availability and implementation of new technologies, the health and 
resilience of natural systems and human communities, and pollution, 
which can amplify or exacerbate the impacts due to changing climate. 
Current climate projections are based largely on scenarios that assume 
no particular climate polices with respect to greenhouse gases (IPCC 
AR4), however, policy choices will, in fact, affect how natural and 
human systems respond, perhaps in unexpected ways.
    Society will need to pursue a mix of smart adaptation and 
mitigation strategies. Identifying the best sets of options requires 
tools that allow us to understand how the Earth's physical, biological 
and human systems will respond to various adaptation and mitigation 
strategies and the tradeoffs with respect to effectiveness and cost. 
Factors of politics, economic development, and human behavior and 
health must be taken into account. These requirements bring us into a 
new and very challenging realm where traditional natural science, 
social science, and policy sciences all intersect.
Potentially Disruptive Climate Change
    Studies of ancient climate change have shown evidence of dramatic 
changes in the Earth's climate. Much new work focuses on possible 
``tipping points'' or thresholds, at which a system undergoes rapid and 
dramatic change. Such events occur rarely, but carry high consequences 
when they do. For example, during the 1990s, Alaska experienced the 
largest outbreak of spruce bark beetles in the world. This outbreak was 
associated with a threshold response to milder winters and warmer 
temperatures that allowed more beetles to survive the winter (SAP 4.2) 
The concept also applies to social and economic systems. Identifying 
potential tipping points in our natural and social systems is 
challenging because many systems are nonlinear, but fully informed 
decisionmaking by policymakers will need to take the possibility of 
tipping points into account.
Dealing with Uncertainty
    No matter how sophisticated our models and predictive capabilities 
there will always be uncertainties in the projections and the risks of 
adopting particular strategies cannot be fully known. Scientists must 
find new ways to convey to non-specialists the uncertainties of their 
predictions and develop tools that allow decision-makers to incorporate 
the information into the decision process.
The Ultimate Goal
    The goal of climate change science is to make verifiable 
quantitative predictions. We need this predictive capability for two 
reasons. First, and most importantly, societies need them to respond 
intelligently to the challenges posed by a changing climate. At the 
same time, as scientists, we know our understanding can be tested only 
by making predictions and comparing them with what actually happens--
this is as true today for global climate change as it was for 
predicting the orbits of the planets in the days of Kepler and Newton. 
Getting to a useful predictive capacity requires scientific 
understanding of the myriad processes and interactions that comprise 
the Earth system. It requires constructing computational models that 
incorporate our understanding. It requires access to our best 
supercomputer hardware and the development of computational methods to 
implement these models. It requires observations of all aspects of the 
Earth system, including its human dimensions, that can be used as the 
starting points for model predictions and as data for testing the 
accuracy of models. And it requires the human and cyber infrastructure 
to deliver model results to people in forms and media that they can 
use.
    As noted previously the scientific community has made remarkable 
progress in gaining an understanding of climate relevant processes and 
the ability to model these processes to give a realistic representation 
of the current climate system on a global scale and how human 
activities have begun to impact climate. There really is no longer a 
question of humankind's perturbation of the climate. The question now 
is the timing and the magnitude of climate change that will occur in 
the future.
Conclusion
    Society cannot avoid the need to adapt to the impacts of continued 
warming of the climate due to past emissions of greenhouse gases, but 
policy and decisionmakers need a rational basis for deciding how to 
proceed and an understanding of the potential consequences of their 
choices. Climate Science has progressed to the point where the detailed 
predictions required are within reach, once a set of definable 
scientific challenges is overcome. The predictive knowledge base to 
inform sound and effective policy is perhaps the most important gift 
science will ever yield to humanity.
    The U.S. leads the world in research in the natural and social 
sciences and engineering disciplines and in developing computing 
hardware and computational tools. The significance of the climate 
problem demands that the U.S. take the lead in its solution. The U.S. 
science community is poised to take on this challenge.
    Mr. Chairman, I appreciate the opportunity to appear before the 
Committee to speak to you on this important topic. I would be pleased 
to answer any questions that you may have.

    The Chairman. Thank you.
    Ms. Jacobs.

  STATEMENT OF KATHARINE JACOBS, EXECUTIVE DIRECTOR, ARIZONA 
                        WATER INSTITUTE

    Ms. Jacobs. Chairman Rockefeller, Ranking Member Hutchison, 
Members of the Committee, thank you so much for the opportunity 
to speak with you today as you consider how best to prepare 
this country for the impacts of climate change.
    The current and potential impacts are undeniably of 
concern. Drought and unreliable water supplies, more intense 
storm events, sea-level rise, and large wildfires are already 
attributed to global warming, and are predicted to increase 
over time. While the focus to date has primarily been on 
reducing carbon emissions, adaptation issues need more 
attention.
    My name is Katharine Jacobs, and I am the Executive 
Director of the Arizona Water Institute, which is a consortium 
of Arizona's three State universities focused on water 
sustainability.
    For 23 years, I was a Water Manager for the Arizona 
Department of Water Resources, and I'm currently a Professor at 
the University of Arizona. I've worked on drought planning, 
water conservation, groundwater management, climate change and 
Colorado River issues, and I currently chair a National Academy 
Panel on Adapting to the Impacts of Climate Change.
    Though we've made great strides in understanding climate 
variability and climate change from a scientific perspective, 
much of that information is lost on the American public and on 
water managers who need it. I have been in countless meetings 
where this gap between science and society has been lamented, 
but, with a few notable exceptions, very little progress has 
been made in addressing this problem.
    Our current ability to connect science and decisionmaking 
is woefully inadequate, and a big part of this problem is 
communication. At a very basic level, the science and 
management communities often fail to understand each other's 
vocabulary and their motivation.
    An associated problem is that, to a layperson, the messages 
that come from scientists and science agencies often appear to 
be in conflict. Climate change information has been highly 
politicized, leading people to incorrect conclusions about the 
quality of the information and the degree of certainty that 
does exist. This means that the context for building the 
proposed National Climate Service is especially challenging.
    Possibly the biggest challenge is funding. A minute portion 
of the Federal science budget is spent on translating that 
science into useful decision-support tools and timely, relevant 
sources of information. There is a lot of focus, especially 
within NOAA and NASA, on buoys, satellites, and massive 
computing capacity. All of these investments have dramatically 
improved the understanding of science; however, to truly 
translate data into information, and information into 
knowledge, requires a larger investment in decision-support 
tools, data access, training, and capacity-building.
    The only way that the new National Climate Service will 
succeed is if it empowers a multitude of regional support 
networks and centers to engage the public and decisionmakers at 
local scales, where decisions affected by climate are made on a 
regular basis.
    Fortunately, we do have examples of successful bridging 
organizations, such as the NOAA Regional Integrated Science 
Assessment Program, with which I have been associated for some 
years. But, this network will have to be informed by a well-
coordinated Federal science team, and the network itself will 
need to be well supported by Federal money.
    Based on recent national and international reports, the 
water supplies of the West are seriously threatened by climate 
change. This is, in part, because higher temperatures alone 
have dramatic impacts on the hydrologic cycle, drying soils, 
reducing runoff into rivers, causing more evaporation from 
reservoirs, and increasing the demand for water for people and 
for ecosystems.
    Recent climate-model information suggests that the 
Southwest will likely also experience reduced precipitation. 
The result could be relatively dire for the Colorado River, 
including a potential 20-percent decrease in flows by the year 
2050. This is not a happy circumstance for the nearly 30 
million people who depend on its flows.
    But, most water managers do not even know about the Climate 
Change Science Program. It is clear that coherent messages 
regarding climate science are not penetrating into arenas where 
they can best be used. Significant restructuring of the program 
will be required so that regional issues, like water-supply 
reliability in the Colorado River Basin, can be effectively 
addressed.
    In the written version of my testimony, I have outlined 
what I believe are the key ingredients of a successful Climate 
Service that will connect science and decisionmaking. In the 
interest of time, I will just say that the Climate Service 
needs to have a broad, inclusive vision; that the engagement, 
training, capacity-building, and coordination functions need to 
be expanded and adequately funded; that it should address both 
climate variability and climate change at multiple time and 
space scales; and that it will require strong leaders who have 
the authority to either encourage or force the integration of 
Federal science capacity to support decisions.
    By some accounts, the U.S. Government has spent more than 
$30 billion in the last 8 years on climate science, and perhaps 
$100 billion total. Given the magnitude of this investment, it 
is clearly time to take stock of what we do know, and, though 
we haven't answered every question, empower decisionmakers to 
access and use that information with full understanding of its 
limitations.
    Clearly, we need to keep investing in research on both 
climate variability and on climate change, but it is time to 
get more value out of the investments we've already made.
    Thank you very much for the opportunity to comment on this 
extremely important topic. If you have any questions, I would 
be happy to respond.
    [The prepared statement of Ms. Jacobs follows:]

      Prepared Statement of Katharine Jacobs, Executive Director, 
                        Arizona Water Institute
    Chairman Rockefeller, Ranking Member Hutchison, Members of the 
Committee, thank you for the opportunity to speak with you today as you 
consider how best to prepare this country for the impacts of climate 
change. Many in this country still do not consider this topic a 
``front-burner'' issue. But the current and potential impacts of 
climate change are undeniably of concern: drought and unreliable water 
supplies, more intense storm events, sea level rise, large wildfires 
and devastating bark-beetle damage to forests across the west already 
are attributed to global warming and are predicted to increase over 
time.
    My name is Katharine Jacobs, and I am the Executive Director of the 
Arizona Water Institute, a consortium of Arizona's three state 
universities focused on water sustainability. Since 2003, I have been a 
Professor in the Department of Soil, Water and Environmental Science at 
the University of Arizona in Tucson. For the prior 23 years I was a 
Water Manager for the State of Arizona, and for 14 of those years I was 
Director of the Tucson regional office. I also briefly managed 
Arizona's drought planning program, and have worked extensively on 
water conservation, groundwater management, climate change, western 
water policy, and the Colorado River. In collaboration with a wide 
range of Federal and university experts, I wrote the water sector 
chapter for the first National Assessment of the impacts of climate 
change, published in 2000. I currently chair a National Academy panel 
on Adapting to the Impacts of Climate Change.
    My comments are directed toward adaptation to climate impacts, 
rather than on limiting carbon emissions. Although these activities 
need to be considered in tandem to avoid unanticipated consequences and 
to optimize investment, conversations about mitigation have been 
ongoing for some time. Discussions of adaptation are long overdue.
    Translating scientific information into useful knowledge for 
decision-makers is my particular interest. I am focused on climate 
science, because better use of this information would be of enormous 
benefit to society in general, and water managers in particular. Two 
important observations: (1) although we have made great strides in 
understanding climate variability and climate change from a scientific 
perspective, much of that information is lost on the American public 
and on the water managers who urgently need it to reduce risk and 
increase economic opportunities, and (2) most scientists have a limited 
understanding of the information needs of decision-makers. I have been 
in countless meetings where this gap between science and society has 
been lamented, but with a few notable exceptions, very little progress 
has been made in addressing this problem.
    I would like to emphasize three key points in my testimony:

        1. Our current ability to bridge the gap between science and 
        decision-making is woefully inadequate, and despite billions of 
        dollars spent on the Federal climate program, it has not been 
        as effective as it would have been if it were more focused on 
        building adaptive capacity.

        2. Adaptation decisions are made at the state, regional and 
        local levels--and the magnitude of the climate change challenge 
        is so great that new mechanisms of engagement are required to 
        build local and regional capacity to respond.

        3. The climate service needs to have a broad, inclusive vision; 
        be adequately funded; address both climate variability and 
        climate change at multiple time and space scales; and have the 
        authority to either encourage or force the integration of 
        Federal science capacity to support decisions
Connecting Science and Decision-Making
    In 2001-2002 I had the good fortune to take a sabbatical from the 
Arizona Department of Water Resources to work for what at the time was 
NOAA's Office of Global Programs (now the Climate Office). While there, 
I worked on the issue of why Federal climate science often does not get 
used by water managers or decision-makers more generally. I spent some 
of that year interviewing both climate scientists and people who 
studied the use of scientific information, and concluded that although 
all of the scientists and the agencies for which they worked had good 
intentions, a variety of factors accounted for the failure to connect 
science and decision-making. I wrote a workbook based on my findings 
called Connecting Science, Policy and Decision-Making: A Handbook for 
Researchers and Science Agencies. I have provided copies to your staff.
    A big part of the bridging problem is communication: failure of 
scientists to understand how the information they generate can best be 
used, and failure to understand the political, institutional and 
economic context of decisions. Meanwhile, resource managers lack trust 
in ``academic, ivory-tower'' information or mistrust the government in 
general; and they often are reluctant to innovate and use data and 
tools from new sources. At a very basic level the science and 
management communities often fail to understand each other's vocabulary 
and motivations.
    A second concern is that scientists aren't always that good at 
talking with each other. They come from different disciplinary 
backgrounds (hydrologists, atmospheric scientists, oceanographers, 
etc.), and often ``stick with their own kind.'' Because climate issues 
are by nature interdisciplinary, this can be a serious problem.
    A third big problem is that to a layperson, the messages that come 
from scientists and science agencies often appear to be in conflict. In 
the case of climate change, information has been highly politicized, 
leading people to incorrect conclusions about the quality of the 
information and the degree of certainty that does exist. For reasons 
that are unclear, people are willing to tolerate high degrees of 
uncertainty in most other aspects of their lives, but the bar is set 
exceedingly high for climate information. This means that the context 
for building the proposed national climate service is especially 
challenging.
    A fourth challenge, possibly the biggest, is funding: a minute 
portion of the Federal science budget is spent on translating that 
science into useful decision support tools and timely, relevant sources 
of information. There is a lot of focus, especially within NOAA and 
NASA, on buoys, satellites and massive computing capacity. All of these 
investments have dramatically improved the understanding of underlying 
processes, atmospheric physics, land surface-atmospheric interactions, 
etc. However, translating data to information, and information to 
knowledge, requires a larger investment in decision support tools, data 
access, training and capacity building.
    Like many other scientific topics, climate science is complicated. 
Climate change presents so many scientific and social challenges, 
across regions and economic sectors, at multiple scales of time and 
space, that building more capacity to translate climate information for 
specific applications is a daunting task. The only way that the new 
national climate service will succeed is if it empowers a multitude of 
regional support networks and centers to engage the public and 
decisionmakers at local scales--where decisions affected by climate are 
made on a regular basis. Fortunately, we do have examples of successful 
bridging organizations, such as the NOAA Regional Integrated Science 
Assessment program, which are university partnerships focused on 
supporting the use of climate information. As has been shown in 
multiple cases, products that are developed collaboratively between 
stakeholders and researchers are more likely to be ``owned'' and used 
by the stakeholders--so the process of network-building, though time-
intensive, brings multiple rewards. But this network will have to be 
informed by a well-coordinated Federal science team--and the network 
itself will need to be well supported by Federal money.
Building Regional Capacity to Respond: Western Water and Climate Change
    During the last week I heard the result of a large-scale assessment 
of public opinion: less than half of Americans believe that climate 
change is a serious threat, and even in California roughly half connect 
climate change with water supply problems, though water supply impacts 
may be the most critical aspect of climate change and California is in 
the grip of a large-scale drought. According to the Pew Center for 
People and the Press, only 30 percent of Americans consider global 
warming to be a priority. In a recent meeting in Arizona, water utility 
staff noted that their elected officials show very little interest in 
climate change, but water supply reliability is an issue that ``keeps 
them awake at night.'' Connecting the dots between cause and effect 
needs to be part of the ``climate literacy'' effort as we work to 
improve adaptive capacity.
    Based on the findings of the International Panel on Climate Change, 
and the most recent reports from the U.S. Climate Change Science 
Program (CCSP), the water supplies of the west are seriously threatened 
by climate change. This is in part because higher temperatures alone 
have dramatic impacts on the hydrologic cycle--drying soils, reducing 
runoff into rivers, causing more evaporation from reservoirs, 
significantly increasing the demand for water for ecosystems, 
landscaping, power generation and agriculture. In addition to higher 
temperatures, recent climate model information suggests that the 
southern portions of the American Southwest and northern Mexico will 
also experience reduced precipitation. The result could be dire 
consequences for the Colorado River (the current best estimate by a 
team of climate scientists from universities all over the west is a 20 
percent reduction in runoff by 2050). Given rapid growth, increasing 
demands for water, and the over-appropriation of Colorado River water 
rights, this prediction is not a happy one for the nearly 30 million 
people who depend on the Colorado.
    But most water managers do not even know about the CCSP or the 21 
Science and Assessment Products that have been developed in the last 
couple of years. It is clear that the 13 Federal science agencies that 
make up the CCSP do not coordinate with each other particularly well, 
and coherent messages regarding their work are not penetrating into 
arenas where they can best be used. If we are to have an effective and 
efficient climate science program and climate service, significant 
restructuring of the program will be required so that regional issues 
like water supply availability in the Colorado River basin can be 
addressed.
Ingredients of Successful Climate Services
  <bullet> User-centric problem definition: to provide the most 
        effective services, there must be an ongoing effort to identify 
        the key decisions where climate information is needed, and to 
        frame at least some portion of the Federal research program 
        around those decisions. This does not mean that we should halt 
        investment in basic understanding of the climate system; it 
        does mean that we need to measure our progress in terms of 
        improving our adaptive capacity, limiting risk, improving 
        quality of life and building economic advantages by developing 
        more problem-focused climate information.

  <bullet> Information at the time and space scales that decisions are 
        made: an important component of providing services that will 
        actually be used is building a system that provides answers at 
        the scale of decisions, for example, focused on reservoir 
        operations at the watershed scale. Resource managers across the 
        board are frustrated that climate model projections are at such 
        a large scale that they have little utility for actual 
        decision-making. Although ``downscaling'' efforts are being 
        initiated, including within my own research partnership, we are 
        a long way from answering their questions.

  <bullet> Credibility of information: A lot is riding on the decisions 
        associated with climate predictions, in some cases billions of 
        dollars in infrastructure investments; in other cases these 
        decisions may make or break a family or a business. Users need 
        to trust the source of this information. Trust comes from long-
        term relationships between scientists and decision-makers; 
        building these relationships requires a long-term commitment of 
        funding that is not tied to the politics of individual 
        administrations.

  <bullet> Adequate funding and independent budget authority: Because 
        the problem requires building decision support infrastructure 
        (training programs, data access systems, monitoring and 
        assessment capacity, etc.), it does not lend itself well to an 
        ad-hoc funding source that is based on the good will of 
        individual decisionmakers within the 13 Federal science 
        agencies. There needs to be significant, centralized 
        coordination with budget authority to ensure that structural 
        support is built and that outcomes are delivered. There will 
        also need to be priority-setting based on risk and 
        vulnerability (among other considerations) and the process of 
        priority setting will need to be de-politicized. Every sector 
        and every region has needs, but we will not be able to meet all 
        of the needs that are identified.

  <bullet> Clear leadership and authority focused on management for 
        societal outcomes: Because this assignment is so daunting and 
        will involve so many people at various scales, there needs to 
        be central leadership that is empowered to achieve outcomes 
        that are valued by decision-makers and can cause agencies to 
        engage through incentives and if necessary, through clear 
        articulation of expectations at a high level. Leaders of this 
        program will need to have the courage to take bold steps, 
        including harvesting science outcomes that may not be viewed by 
        some as ``ready for prime time'' and testing their utility for 
        improving decisions.

  <bullet> Buy-in, coordination and engagement of Federal agencies 
        beyond NOAA: Although the roles of the various Federal agencies 
        in the climate service have not been identified, NOAA clearly 
        cannot and should not try to create the climate service on its 
        own. Whatever coordination and management system is developed 
        will need to provide incentives for all of the agencies to work 
        together toward common goals. There is no time and no money for 
        turf battles over the components of this system. NOAA will play 
        a key role, but this project will require a variety of 
        innovative partnerships with local and regional entities and 
        universities as well as functional partnerships between Federal 
        agencies. The capacity to do all of this coordination does not 
        currently exist within NOAA.

  <bullet> A central portal for information (clearinghouse function/
        informatics): Because providing decision support that is 
        timely, relevant and credible at a range of time and space 
        scales will be very expensive, we must harness information 
        technology to provide the tools that local, regional, state, 
        tribal and sectoral decision-makers need. In many cases, 
        providing better tools over the Internet and more useful ways 
        to manipulate and visualize data may move us a long ways 
        forward. Major investments are required in the 
        ``cyberinfrastructure'' of the climate service. Significant 
        progress is being made along these lines in the context of the 
        National Integrated Drought Information System (NIDIS) and at 
        the National Climate Data Center.

  <bullet> Adequate interface with communities, states, sectors, 
        regions, tribes, etc.: The engagement strategy needs to include 
        ways to entrain, leverage and expand existing operational 
        capacity (including the NOAA Regional Integrated Science 
        Assessment Programs; science translation capacity within 
        universities, including the Cooperative Extension Programs; 
        natural resources management NGO's and a variety of private 
        sector interests, and local and regional jurisdictions and 
        interest groups). This interface needs to be managed on an 
        ongoing basis to ensure we are answering the right questions, 
        that there is two-way communication, and that there is ongoing 
        assessment of progress (in terms of both outcomes and process).

  <bullet> Capacity building and training programs: Because there are 
        few people who are qualified to do science translation for 
        specific policy applications, a deliberate effort to expand the 
        community of people who can tailor science information for 
        specific applications is needed. This will involve partnerships 
        with universities as well as training programs for scientists, 
        resource managers and elected officials.

  <bullet> Enhanced, strategic observation and modeling capability: 
        Despite my strong advocacy for more focus on engagement and 
        decisions, there is a major disconnect between adaptation in 
        regions and sectors and the types of monitoring that are 
        currently underway. Although we have made great progress in 
        remote sensing, and satellites can provide reams of new 
        information at very useful scales, our ground-truthing capacity 
        is totally inadequate. One of the biggest travesties is the 
        disintegration of the USGS stream gage program at exactly the 
        point in time when we need more and better gaging information. 
        We also need more snow monitoring sites, more soil moisture 
        measurements, etc. Strategic design of the monitoring program 
        to focus on answering important management questions and to 
        detect trends in real time is critical to better adaptive 
        capacity.

  <bullet> Avoiding maladaptive decisions: Many past decisions have 
        increased our vulnerability to climate events (e.g., allowing 
        construction in floodplains and in low-lying coastal areas, 
        subsidies for agricultural activities that increase demands for 
        water and power without providing commensurate benefits, etc.). 
        In the context of the stimulus bill we are engaging in building 
        significant quantities of new infrastructure. A critical 
        feature of adaptation is learning from past mistakes: let's 
        make sure that this new infrastructure is designed for changing 
        climate conditions, including using new engineering standards 
        that recognize non-stationarity in the climate system and the 
        already-evident increase in extreme events such as flooding, 
        coastal erosion and storm surges.
Conclusions
    By some accounts, the U.S. Government has spent more than $30 
billion in the last 8 years on climate science, and perhaps $100 
billion total. Given the magnitude of this investment, it is clearly 
time to take stock of what we do know, and though we haven't answered 
every question, empower decisionmakers to access and use that 
information with full understanding of its limitations. Improvements in 
forecast skill will always be welcome, but lack of skill is not the 
real reason that climate information is under-used. If provided with 
the tools to assess the quality of the information, and with access to 
``science translators,'' the resource managers of this country will 
make their own judgments about the types of information that could be 
useful to them. They are eager to have more tools at their disposal. 
Clearly we need to keep investing in research on both climate 
variability and on climate change--but it is time to get more value out 
of the investments that we have made.
    Thank you very much for the opportunity to comment on this 
extremely important topic. After having worked on this subject for 
years, it is gratifying to see that we are on the brink of making 
significant progress in this arena and of joining forces with the rest 
of the world to limit the impacts of climate change through building 
adaptive capacity as well as by limiting this country's contributions 
to greenhouse gas emissions.
    If you have any questions I would be very happy to respond.

    The Chairman. Thank you very much, Dr. Jacobs.
    Sean Dilweg.

           STATEMENT OF SEAN DILWEG, COMMISSIONER OF

         INSURANCE, STATE OF WISCONSIN ON BEHALF OF THE

        NATIONAL ASSOCIATION OF INSURANCE COMMISSIONERS

    Mr. Dilweg. Thank you, Chairman Rockefeller, Ranking Member 
Hutchison, and Members of the Committee on Commerce, Science, 
and Transportation.
    My name is Sean Dilweg. I am the Insurance Commissioner for 
the State of Wisconsin, and I'm here on behalf of all the 
Insurance Commissioners for the National Association of 
Insurance Commissioners.
    Today, I will focus on our position and perspective on the 
potential insurance-related impacts of climate change. I will 
also offer suggestions for insurance-regulator action to 
protect consumers and address insurance solvency, recognizing 
that climate-change-related risk continues to grow.
    The insurance sector is uniquely positioned between the 
causes and the impacts of climate change. Last year, I chaired 
our Climate Change Task Force and spent a lot of time with 
industry and consumer advocates crafting a white paper, that 
was adopted by all of my fellow Commissioners, that is outlined 
and, I know, presented to the Committee, called ``The Potential 
Impact of Climate Change on Insurance Regulation.'' We have 
also been pursuing disclosure requirements on our insurance 
companies. This would be the first mandatory disclosure survey 
on any industry in the U.S.
    I want to touch on a few different areas, and I'll start by 
speaking to insurance investments.
    It is imperative regulators examine how climate change will 
impact the investments insurers hold and establish applicable 
regulatory standards for investment practices of insurers. 
Direct and indirect investments in real estate represent a 
portion of all assets held by insurers. Many of these 
properties are located within coastal areas with increasing 
risk from climate-change-influenced weather perils, like 
hurricanes and flooding. As investors in these properties, 
insurers may be exposed to greater investment risk. Insurance 
regulators need to recognize the risk of weather-related losses 
on real estate is complex. It can arise, not only from 
declining asset values, but also the costs of fortification, 
physical damage to structures, and associated business 
interruption.
    As regulators of one of the largest American industries, it 
is essential that insurance regulators assess, and, to the 
extent possible, mitigate, the impacts of climate change while 
encouraging insurers to incentivize sustainable practices. As 
such, insurers have historically played a role in the 
mitigation of losses. For example, as the result of fire 
disasters in the late 1800s, insurers led the effort to improve 
building codes and develop new building and loss mitigation 
techniques to reduce the effect of fire. You could say the 
modern-day city is heavily influenced by insurers. When you 
think about cities back in the late 1800s, you had a lot of 
wooden buildings, a lot of candles, a lot of gaslight. And 
finally the insurers just started saying, ``Look, you need a 
fire station every five blocks. You need a water system put in 
place.'' And that is what occurred, and that's what we have 
today. Today, insurers can also help mitigate the impact of 
climate change by promoting the adoption of vigorous 
enforcement of uniform building codes throughout the Nation.
    The task force heard from software developers on 
catastrophic modeling as it exists today. We heard from EQECAT 
and AIR Worldwide regarding the insurer's ability to make the 
use of sophisticated catastrophe modeling. These models 
provided insurers with the ability to assess risk and price 
their products with a degree of accuracy. These models, 
however, only have a short-term focus--generally, 5 years or 
less. Climate change modeling, however, takes a much longer 
view--50 years or more--and attempts to evaluate the risk 
impact of gradual changes on climate, instead of measuring the 
risk associated with swift and severe events, as well as the 
frequency of those events. Our task force heard from the 
scientists working at the National Center for Atmospheric 
Research, where climate change modeling is evolving. In light 
of this, the task force recognizes that the science behind 
climate modeling as it evolves is appropriate for the approach 
that regulators take with respect to climate change to evolve, 
as well.
    We also pursued, this year, a forward-looking disclosure 
approach to provide investors, consumers, and regulators with 
eight reporting questions that will be phased in over the next 
few years. It represents a good first step in showing how the 
risks of climate change occur on our insurers every day. I 
expect this to be adopted by the NAIC next week.
    It is clear to regulators that, whatever the cause, be it 
manmade or natural, climate change is occurring. From 
intensified hurricanes off the coast of Africa to the dryness 
or extreme wetness of a Midwest summer, climate change has an 
effect on our insurable interests, and thereby the companies 
and policyholders that each state regulates. The NAIC supports 
State and Federal tools to increase the accuracy of climate 
science as a basis for product pricing. It also supports 
increased climate science research funding to speed relevant 
climate change information to market.
    We look forward to working with the Committee and Congress 
on this issue as the science continues to evolve. Thank you for 
holding this hearing and for inviting me here today. I look 
forward to answering any questions.
    [The prepared statement of Mr. Dilweg follows:]

Prepared Statement of Sean Dilweg, Commissioner of Insurance, State of 
     Wisconsin on Behalf of the National Association of Insurance 
                             Commissioners
    Chairman Rockefeller, Ranking Member Hutchison, and Members of the 
Committee on Commerce, Science, and Transportation, thank you for the 
opportunity to testify today. My name is Sean Dilweg. I am the 
Insurance Commissioner for the State of Wisconsin and I am here on 
behalf of the National Association of Insurance Commissioners. In my 
testimony, I will focus on the NAIC's position and thinking on the 
potential insurance related impacts of climate change, I will also 
offer suggestions for insurance regulator action to protect consumers 
and address insurer solvency, recognizing climate change related risk 
continues to grow.
    Let me begin first by stating that the most important duty of an 
Insurance Commissioner is to protect insurance consumers. It is the 
primary job of any insurance regulator to ensure that insurance 
companies remain solvent so that they can pay claims as they become 
due, and to ensure that insurance customers' and claimants' rights and 
interests are protected.
Investments
    It is imperative regulators examine how climate change will impact 
the investments insurers hold and establish applicable regulatory 
standards for the investment practices of insurers. Direct and indirect 
investments in real estate represent a portion of all assets held by 
insurers. Many of these properties are located within coastal areas 
with increasing risk from climate change influenced weather perils like 
hurricanes and flooding. As investors in these properties, insurers may 
be exposed to greater investment risk. Insurance regulators need to 
recognize that the risk of weather-related losses on real estate is 
complex. It can arise not only from declining asset values, but also 
the costs of fortification, physical damage to structures, and 
associated business interruption.
    Historically, and from a viewpoint of social construct, insurance 
has helped shape towns and cities as an essential financial security 
tool for individual and community economic development, with a 
corollary that availability and affordability are also essential. It is 
clear that loss mitigation and loss prevention are the most viable 
solutions to both current marketplace problems and the growing threat 
of climate change and global warming. It is the only way to moderate 
and reduce the incidence and severity of catastrophe events.
    Accordingly, it is vitally important that insurers begin to assess 
and take into account the effects of climate change on all lines of 
insurance, from intensified hurricanes off of the coast of Africa to 
the dryness of a Midwest summer. Changes in climate have a direct 
effect on our insurable interests and the companies and policyholders 
that each state regulates.
Mitigation
    Insurance regulators must assess and, to the extent possible, 
mitigate the impact that climate change will have on insurance and 
encourage insurers to provide incentives for policyholders to engage in 
practices that will ultimately strive to limit losses. As such, 
insurers have historically played a leading role in loss mitigation 
efforts. For example, as a result of fire disasters, insurers led the 
effort to improve building codes and develop new building and loss 
mitigation techniques to reduce the effects of fire. Insurers in 
coastal regions are often leading proponents of better land use 
policies and mitigation efforts, such as roof strapping and storm 
shutters. Likewise, insurers can help mitigate the impact of climate 
change by promoting adoption and vigorous enforcement of uniform 
building codes. They can also promote building code upgrades and 
retrofits of existing structures by offering premium discounts for 
proven loss mitigation building techniques, and by advocating for 
lender or government sponsored low interest loans for these mitigation 
activities.
    Some insurers have developed new products that provide coverage for 
green buildings. Fireman's Fund Insurance Company has introduced 
Certified Green Building Replacement and Green Upgrade coverage, a new 
coverage specifically for green commercial buildings that addresses the 
unique risks that come along with sustainable building practices.
CAT Modeling
    The NAIC heard from several catastrophe modeling firms who 
explained how climate change factors into risk modeling techniques. 
Catastrophe models provide insurers with the ability to assess risk and 
price their products with some degree of accuracy. However, these 
models tend to have a short-term focus of generally 5 years or less, 
while climate change modeling takes a much longer view--10 years or 
more--and attempts to evaluate the risk impact of gradual changes in 
climate instead of measuring the risk associated with swift and severe 
events as well as the frequency of those events. The NAIC also heard 
from scientists working at the National Center for Atmospheric Research 
(NCAR) who indicated that climate change modeling is relatively new and 
still evolving. In light of this, the NAIC recognizes that as the 
science behind climate modeling evolves, it will provide better tools 
for companies and regulators and could increasingly factor into 
insurance decision-making.
NAIC Climate Change Task Force And White Paper
    In 2007, the GAO reported that climate change was an emerging high 
risk area with long-term growth in exposure to private and Federal 
insurers but that the two sectors were responding, assessing and 
incorporating the potential long-term financial impacts differently. As 
an initial step in addressing the issue, the NAIC formed the Climate 
Change and Global Warming (EX) Task Force. The Task Force was charged 
with, among other duties, the responsibility of drafting a white paper 
documenting the potential insurance related impacts of climate change 
on insurance consumers, insurers and insurance regulators. The Task 
Force recommended its white paper, The Potential Impact of Climate 
Change on Insurance Regulation, and the NAIC adopted it on June 2, 
2008.
    In sum, the Task Force white paper discusses investment issues 
facing insurers and notes that some investment opportunities will 
arise. It encourages insurers to evaluate the geographic spread of the 
risks they are insuring and encourages insurers to develop contingency 
plans. The White paper also emphasizes the importance of greater 
disclosure. It encourages insurers to become involved in strengthening 
building codes and advocating for sound land-use planning and become 
more involved in loss prevention and mitigation. It also recognizes the 
impact of demand surge, post-event living expense increases, and issues 
with business interruption coverages and suggests that new solvency 
regulatory tools are needed.
    The NAIC Task Force also provides a forum to bring together all 
interested parties for a transparent discussion and development of 
required information standards, innovative product ideas, and evolving 
technologies. The Task Force has been involved in a number of key 
efforts:

  <bullet> Presentations by the U.S. Green Building Council (USGBC) on 
        Green Building Standards and the environmental impact of 
        building green. Topics included the impact of commercial and 
        residential building on our environment; the environmental, 
        lifestyle, and business advantages of building green; and 
        information on USGBC's educational offerings.

  <bullet> Discussions on innovative ``Green'' insurance products 
        offered by Fireman's Fund. Representatives from Fireman's Fund, 
        a subsidiary of Allianz, spoke about their variety of ``green'' 
        insurance products, such as providing insurance coverage for 
        certified green buildings and upgrades of traditional buildings 
        following a loss, and a ``green'' homeowners policy (available 
        to Illinois as of June 1, 2008 and many other states starting 
        in July 2008). Homeowners products have taken a lead from the 
        commercial products, and both have been well received in all 
        regions nationwide.

  <bullet> Presentation on CALSTRS Green Investment Strategy by its 
        CEO, Jack Ehnes. Subjects included the incorporation of the 
        United Nations' Principles for Responsible Investments (PRI) 
        that integrates active ownership and environmental, social, and 
        governance issues into ownership policies and practices; the 
        readiness, preparedness, responsiveness of the U.S. insurance 
        industry for Climate Change; the current vagueness and lack of 
        voluntary disclosure of climate risk; and requiring questions 
        that would allow for better understanding of potential impacts 
        on affordability of insurance and insurers' financial health.

  <bullet> A presentation on the California perspective on Climate 
        Change by Lisbeth Landsman-Smith of the California Department 
        of Insurance, and Max Moritz of Environmental Science, Policy, 
        and Management, from U.C. Berkeley. Topics included development 
        of a more comprehensive plan for handling the implications of 
        fire hazards; refinement of Fire Hazard Severity Zone (FHSZ) 
        mapping and a more risk-based approach; and an increase of 
        equitability and reduction of uncertainties, in addition to 
        assessing fees and research funding.

  <bullet> The Climate Risk Disclosure Working Group met in Boulder, 
        Colorado at the National Center for Atmospheric Research (NCAR) 
        on September 11, 2008. During the meeting, the Working Group:

    <ctr-circle> Heard from three scientists regarding current climate 
            change research and modeling.

    <ctr-circle> Heard a presentation from Risk Management Solutions 
            (RMS) examining current hurricane model capabilities and 
            reliability;

    <ctr-circle> Discussed the August 15, 2008 draft Climate Risk 
            Disclosure Proposal, including verbal comments from 
            interested parties.

  <bullet> Presentations from EQECAT and AIR regarding how climate is 
        considered in hurricane catastrophe models. During the 
        presentations the regulators:

    <ctr-circle> Discovered that there are issues related to merging 
            atmospheric data with historical hurricane data, 
            particularly with projections in the 1-10 year range. To 
            compensate, modelers are beginning to use multiple models 
            with varying assumption methods (both historical and a 
            blend of historical and predictive). However, the modelers 
            agree that there will be relatively more intense hurricanes 
            with more rainfall, with intensity increasing dramatically 
            by approximately 2020.

    <ctr-circle> Learned that modelers are less certain regarding 
            projections about the number of hurricanes that will make 
            landfall in the U.S. due to the conflicting hurricane 
            scenarios between the Atlantic and Pacific Coasts.

  <bullet> Presentation from Henry Fox (Fox Consulting) providing an 
        update on the development of climate trend data. He discussed 
        his research on historical weather trends in separate weather 
        zones throughout the U.S. over a 50-year period in an effort to 
        forecast future weather trends. His patented forecasting 
        methods are unique in that they place a heavier weighting on 
        more recent years. His findings suggest that some zones show 
        increases in average temperature or rainfall while other zones 
        show decreases. He did not believe his findings support the 
        overall global warming theories. He suggested that his work 
        could be used by the insurance industry and American businesses 
        to better understand long-term weather-related risks in the 
        weather zones examined.

  <bullet> A presentation from 3C, a company that provides carbon 
        neutral services, regarding how the European Union and U.S. 
        carbon trading markets function. 3C also provided information 
        to the Task Force about a joint venture product involving 3C 
        and Allianz called, ``Ecomotion.''

  <bullet> Discussions on pay as you drive insurance.

    Additionally, looking forward at 2009, we anticipate that the Task 
Force will look at hosing a possible climate change summit, and 
consider development of a guidance document aiding insurers in how they 
should respond to the Insurer Climate Risk Disclosure Survey, 
referenced below.
Disclosure
    It is challenging for regulators to determine how well-prepared the 
industry is for the challenges of climate change. U.S. Insurers lag in 
SEC disclosure that relate to climate change. Only 15 percent of U.S. 
insurers surveyed discussed climate change in 10K filings, compared to 
100 percent of electric utilities and 78 percent of oil companies. 
There was also a poor response to the Carbon Disclosure Project where 
only 30 percent of U.S. insurers responded, compared to 70 percent in 
Europe and 62 percent in the rest of the world.
    The NAIC has taken a forward looking approach to developing 
assessment tools that identify the potential impact climate change has 
on insurers and how insurers are assessing those risks. The Insurer 
Climate Disclosure Survey is the first of its kind in any industry and 
could serve as a model for financial institutions to gain insight into 
the impact of climate change on their industries.
    The Insurer Climate Risk Disclosure Survey is a mandatory public 
survey document that will be phased in over the next few years. It 
represents a good first approach to climate change so that regulators, 
consumers and companies can begin to understand how climate change is 
affecting the risks that are underwritten everyday. The Disclosure 
Survey is meant to be a starting point and the Task Force recognizes 
that as the science behind climate modeling evolves, so must the 
approach of regulators.
    The Disclosure Survey standardizes climate risk disclosure 
information to make it easy for companies to provide that information. 
Given the infancy of this issue, the Disclosure Survey has been kept to 
eight general reporting questions for insurers that meet certain 
premium thresholds. However, it still provides some measure of 
transparency so that investors and regulators can better identify 
risks.
    The questions seek general information from insurers about things 
they have done to reduce greenhouse gas (GHG) emissions in their 
operations, whether they have a climate change statement of policy, 
whether they consider climate change as they choose investments and 
what they have done to encourage policyholders to reduce losses caused 
by climate influenced events. Further questions delve deeper into 
insurer use of climate computer simulation modeling, analysis of 
climate change's impact on an insurer's investment portfolio and how 
the insurers are engaging their constituencies on the topic of climate 
change.
    Insurance regulators believe this is the first step of many in 
assessing insurance industry efforts to measure the impact of climate 
change on insurer operations and policyholders.
    Regulators also have a role to play in ensuring that environmental 
benefits claimed by insurers are authentic and reasonably quantified to 
lend validity to these efforts.
    The NAIC supports efforts to increase the exactness of climate 
science as a basis for more accurate product pricing and in more 
climate science research funding to speed the delivery of relevant 
climate change information to market.
    We look forward to working with the Committee and Congress on this 
issue as the science continues to evolve. Thank you for holding this 
hearing, for inviting me here today, and for your continued interest 
and leadership. I am happy to answer any questions.

    The Chairman. Thank you, sir.
    Mr. Alix.

         STATEMENT OF FRANK ALIX, CEO, POWERSPAN CORP.

    Mr. Alix. Thank you, Mr. Chairman, for the opportunity to 
share my perspective on how science informs climate mitigation 
strategies.
    My testimony today will focus on the importance of carbon 
capture and sequestration as a climate change mitigation 
strategy, the prospects for commercial deployment of carbon 
capture technologies on coal-fired power plants, and the 
actions the government can take to accelerate CCS deployment.
    We all know that coal is abundant and cheap. It supplies 50 
percent of the electricity in the U.S. and 80 percent in China. 
The economies of the Midwest, South, Southwest, and Plains 
States depend heavily on low-cost electricity from coal. 
Therefore, CCS is the most important climate change mitigation 
strategy we can pursue.
    According to the EIA, 36 percent of U.S. CO<INF>2</INF> 
emissions in 2006 came from coal consumption. Broadly deploying 
CCS with 90-percent capture efficiency could reduce those 
emissions to 4 to 5 percent.
    Since the transportation sector accounts for another 34 
percent of U.S. CO<INF>2</INF> emissions, transforming this 
sector with electric vehicles powered by low-carbon electricity 
could reduce our CO<INF>2</INF> emissions by another 20 to 30 
percent. Therefore, CCS could potentially provide over half of 
the emission reductions required to meet our climate change 
mitigation goals.
    Powerspan has been developing and commercializing advanced 
clean coal technology since 1994. Our approach to 
CO<INF>2</INF> capture is a post-combustion process designed to 
capture 90 percent of CO<INF>2</INF> emissions. The technology 
is suitable for retrofit to the existing coal-fired generating 
fleet and for new coal plants.
    Pilot-scale testing of our ECO<INF>2</INF> technology began 
in December 2008 at FirstEnergy's Burger Plant in Southeastern 
Ohio, right across from Moundsville, West Virginia. The 
ECO<INF>2</INF> plant was designed to treat a 1 megawatt flue-
gas stream and capture 20 tons of CO<INF>2</INF> per day. 
Initial testing has demonstrated 80-percent capture efficiency, 
which is a promising start. We recently completed two minor 
design modifications that we expect will increase the 
CO<INF>2</INF>-capture rate to 90 percent.
    The pilot plant was built using the same type of equipment 
that we plan to use in commercial systems. Therefore, 
successful operation of the pilot unit will confirm our design 
assumptions and cost estimates for large-scale CCS projects. 
Although commercial-scale CCS projects still have some risk, 
that risk is manageable, because the major equipment used in 
the ECO<INF>2</INF> process has been used in other commercial 
applications at the scale required for CCS.
    Our experience in the emerging market for commercial-scale 
CCS projects supports our optimism. In 2007, Basin Electric 
Power Cooperative conducted a competitive solicitation for a 
post-combustion CO<INF>2</INF>-capture technology to retrofit 
their Antelope Valley Station, which is a coal-fired power 
plant located in Beulah, North Dakota. The Antelope Valley 
Project will install CO<INF>2</INF>-capture equipment on a 120-
megawatt flue-gas slipstream taken from a 450-megawatt unit. 
Basin Electric has targeted 90-percent capture efficiency to 
provide 1 million tons of CO<INF>2</INF> annually for enhanced 
oil recovery. Six of the leading vendors of CO<INF>2</INF>-
capture technology responded to the solicitation. And after a 
detailed evaluation, Basin Electric selected Powerspan. This 
commercial CCS project is scheduled to start up in 2012.
    Since being selected for the project, a feasibility study 
has confirmed that there are no technical limitations to 
deploying ECO<INF>2</INF> at the plant. The study estimated 
costs of less than $40-per-ton for 90 percent CO<INF>2</INF> 
capture and compression. A similar study of ECO<INF>2</INF> 
recently conducted for a 760-megawatt supercritical coal plant 
estimates CO<INF>2</INF>-capture costs of under $30 per ton. A 
third engineering study focused on ECO<INF>2</INF> scaling risk 
determined that our pilot plant will provide sufficient design 
information to confidently build commercial-scale systems up to 
760 megawatts.
    Despite the promise indicated by the Basin Electric 
project, strong government action is needed to ensure timely 
deployment of CCS technology to support our climate change 
mitigation goals. Government action should focus on three 
areas: (1) a strong market-based cap on greenhouse gas 
emissions; (2) a CO<INF>2</INF> emission performance standard 
for new coal-fired power plants, and (3) early deployment 
incentives for commercial-scale CCS systems.
    Incentives are needed to ensure early deployment of CCS, 
because CO<INF>2</INF>-capture technology is not yet 
commercially proven and early CO<INF>2</INF> prices will not be 
sufficient to offset CCS costs. To be most effective, these 
incentives must provide long-term CO<INF>2</INF> price 
certainty to facilitate project financing and must be awarded 
competitively, preferably by a reverse auction, in order to 
minimize the costs while providing a market signal on the real 
cost for early CCS installations.
    Early deployment of CCS technology will also create jobs 
and promote economic growth. These projects require 3 to 4 
years to implement and create significant economic activity 
over their duration.
    In addition, by incenting early deployment of CCS, the U.S. 
can assume a leading position in this critical technology 
sector and create a thriving high-tech export business, and the 
quality jobs that come with it.
    In summary, CO<INF>2</INF>-capture technology is 
commercially available from several qualified vendors with 
standard commercial guarantees. Independent studies show that 
early commercial installations of CO<INF>2</INF>-capture 
technology are likely to be successful. The most important 
reason to promote early deployment of CCS is that post-
combustion CO<INF>2</INF>-capture technologies will preserve 
the huge investment in existing coal-fired power plants and 
allow us to use effectively the abundant low-cost coal reserves 
in the U.S. and in developing nations, even in a climate-
constrained world.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Alix follows:]

         Prepared Statement of Frank Alix, CEO, Powerspan Corp.
    Good morning, Mr. Chairman and Members of the Committee. Thank you 
for the opportunity to share my perspective on how science informs 
climate change mitigation strategies. My name is Frank Alix and I am 
CEO of Powerspan Corp., which is a clean energy technology company 
headquartered in New Hampshire.
    My testimony today will focus on the importance of carbon capture 
and sequestration (CCS) as a climate change mitigation strategy, the 
prospects for commercial deployment of carbon-capture technologies on 
coal-fired power plants, and the actions the government can take to 
accelerate CCS deployment.
    We all know that coal is abundant and cheap. It supplies 50 percent 
of electricity generated in the U.S. and 80 percent in China. The 
economies of the Midwest, South, Southwest, and Plains States depend 
heavily on low-cost electricity from coal. Therefore, CCS is the most 
important climate change mitigation strategy we can pursue.
    According to the EIA, 36 percent of U.S. CO<INF>2</INF> emissions 
in 2006 came from coal consumption. Broadly deploying CCS with 90 
percent capture efficiency could reduce those emissions to 4-5 percent. 
EIA predicts that CCS will have to provide at least 30 percent of 
CO<INF>2</INF> emission reductions needed worldwide to stabilize GHG 
concentrations in the atmosphere. Since the transportation sector 
accounts for another 34 percent of U.S. CO<INF>2</INF> emissions, 
transforming this sector with electric vehicles powered by low-carbon 
electricity sources could reduce our CO<INF>2</INF> emissions by 
another 20-30 percent. Therefore, CCS could potentially provide over 
half of the emission reductions required to meet our climate change 
mitigation goals.
    Powerspan has been developing and commercializing advanced clean 
coal technology since its inception in 1994. Our approach to 
CO<INF>2</INF> capture, called ECO<INF>2</INF><SUP>'</SUP>, is a post-
combustion process for conventional power plants designed to capture 90 
percent of CO<INF>2</INF> emissions. The technology is suitable for 
retrofit to the existing coal-fired generating fleet and for new coal-
fired plants. ECO<INF>2</INF> is a regenerative process that uses an 
ammonia-based solution to capture CO<INF>2</INF> in the flue gas. Once 
the CO<INF>2</INF> is captured, the solution is regenerated to release 
CO<INF>2</INF> in a form that is ready for compression and pipeline 
transport for geological storage.
    Pilot scale testing of our ECO<INF>2</INF> technology began in 
December 2008 at FirstEnergy's Burger Plant in Southeastern Ohio. The 
ECO<INF>2</INF> pilot was designed to treat a 1-megawatt (MW) flue gas 
stream and produce 20 tons of CO<INF>2</INF> per day. Initial testing 
has demonstrated 80 percent CO<INF>2</INF>-capture efficiency, which is 
a promising start. We recently completed two minor design modifications 
that we expect will increase the CO<INF>2</INF>-capture rate to 90 
percent.
    The ECO<INF>2</INF> pilot plant was built using the same type of 
equipment that we plan to use in commercial systems. Therefore, 
successful operation of the pilot unit will confirm our design 
assumptions and cost estimates for large-scale carbon capture and 
sequestration (CCS) projects. Although commercial scale CCS projects 
still have some risk, that risk is manageable because the major 
equipment used in the ECO<INF>2</INF> process--large absorbers, pumps, 
heat exchangers, and compressors--have all been used in other 
commercial applications at the scale required for CCS. The advanced 
technology in ECO<INF>2</INF> is innovative process chemistry. 
Commercial application of this unique technology holds no special 
challenges and therefore has a high probability of commercial success.
    Our experience in the emerging market for commercial-scale CCS 
projects supports our optimism. In 2007, Basin Electric Power 
Cooperative conducted a competitive solicitation for a post-combustion 
CO<INF>2</INF>-capture technology to retrofit their Antelope Valley 
Station, which is a coal-fired power plant located adjacent to their 
Great Plains Synfuels Plant in Beulah, North Dakota. Their synfuels 
plant currently hosts the largest CCS project in the world, with three 
million tons of CO<INF>2</INF> captured annually and sold for enhanced 
oil recovery (EOR) in the Weyburn fields of Saskatchewan. The Antelope 
Valley project will install CO<INF>2</INF>-capture equipment on a 120-
MW flue gas slipstream taken from a 450-MW unit. Basin Electric has 
targeted 90 percent CO<INF>2</INF>-capture efficiency to provide an 
additional 1 million tons of CO<INF>2</INF> annually for EOR. Six of 
the leading vendors of CO<INF>2</INF>-capture technology responded to 
the Antelope Valley solicitation and after a detailed evaluation, Basin 
Electric selected Powerspan. This commercial CCS project is scheduled 
to start up in 2012.
    Since being selected for the Antelope Valley project, a feasibility 
study has confirmed that there are no technical limitations to 
deploying ECO<INF>2</INF> at the plant. The study estimated 
ECO<INF>2</INF> costs of less than $40 per ton for 90 percent 
CO<INF>2</INF> capture and compression (in current dollars, with +/- 30 
percent accuracy). A similar study of ECO<INF>2</INF> recently 
conducted for a new 760-MW supercritical pulverized coal plant 
estimates CO<INF>2</INF>-capture costs of under $30 per ton, including 
compression. A third engineering study focused on ECO<INF>2</INF> 
scaling risk determined that the ECO<INF>2</INF> pilot plant will 
provide sufficient design information to confidently build commercial 
scale systems up to 760-MW, supporting that ECO<INF>2</INF> technology 
scaling risk is manageable. Independent engineering firms led the 
feasibility, cost, and scaling studies for our prospective customers. 
As a sign of our confidence in commercial deployment of ECO<INF>2</INF> 
systems, we will back our installations with industry standard 
performance guarantees.
    Despite the promise indicated by the Basin Electric project, strong 
government action is needed to ensure timely deployment of CCS 
technology to support climate change mitigation goals. Government 
actions should focus on three areas: (1) a strong, market-based cap on 
GHG emissions, (2) a CO<INF>2</INF> emission performance standard for 
new coal-based power plants, and (3) early deployment incentives for 
commercial scale CCS systems. Due to limited time, I will only 
elaborate on my third point, the need for CCS incentives.
    Incentives are needed to ensure early deployment of CCS because 
CO<INF>2</INF>-capture technology is not yet commercially proven and 
early CO<INF>2</INF> prices will not be sufficient to offset CCS costs. 
To be most effective, CCS incentives must provide long-term 
CO<INF>2</INF> price certainty to facilitate project financing, and 
must be awarded competitively, preferably by reverse auction, in order 
to minimize cost while also providing a market signal on the real costs 
for early CCS installations. Knowing actual CCS costs is extremely 
important to plant owners, investors, technology developers, and 
regulators in evaluating future investment and regulatory decisions. 
Competitively awarding CCS incentives is also consistent with how 
renewable portfolio standards are normally administered.
    Early deployment of CCS technology will also create jobs and 
promote economic growth. CCS projects require 3 to 4 years to implement 
and create significant economic activity over their duration. For 
example, a single CCS project would cost between $250-750 million in 
capital expense and create up to 500 jobs at its peak, with the 
majority of materials and labor sourced in the U.S. However the 
government's cost of the CCS incentive program would not be incurred 
until CO<INF>2</INF> sequestration begins upon project completion. In 
addition, by incenting early deployment of CCS, the U.S. can assume a 
leading position in this critical sector and create a thriving, high-
tech export business, and the quality jobs that come with it.
    In summary, CO<INF>2</INF>-capture technology is commercially 
available from several qualified vendors with standard commercial 
guarantees. Independent studies show that early commercial 
installations of CO<INF>2</INF>-capture technology are likely to be 
successful. The cost of widespread deployment of technologies such as 
ECO<INF>2</INF> appears manageable, particularly when compared to the 
cost of other low-carbon electricity solutions. And once we gain 
commercial CCS experience, future costs will no doubt decrease 
substantially.
    The most important reason to promote early deployment of CCS is 
that post-combustion CO<INF>2</INF>-capture technologies will preserve 
the huge investment in existing coal-fired power plants and allow us to 
effectively use abundant, low cost, coal reserves in the U.S. and 
developing nations, even in a climate constrained world. If we are not 
successful in commercializing CCS technology in the near-term, it will 
be difficult for the world to meet its long-term goals for climate 
change mitigation.
    Thank you, Mr. Chairman. I would be pleased to answer any 
questions.
                                 ______
                                 
                               Appendix A
   ECO<INF>2<SUP>'</SUP></INF> Technology for CO<INF>2</INF> Capture 
             from Existing and New Coal-Fired Power Plants
Summary
    Powerspan Corp.'s CO<INF>2</INF>-capture process, called 
ECO<INF>2</INF><SUP>'</SUP>, can be applied to both existing and new 
coal-fired electric power plants to capture 90 percent CO<INF>2</INF> 
from the flue gas. The process is designed as an add-on system that 
could be deployed when needed and is particularly advantageous for 
sites where ammonia-based scrubbing of power plant emissions, such as 
our ECO <SUP>'</SUP> multi-pollutant control technology, is employed. 
The technology is currently being piloted on a 1-megawatt (MW) 
slipstream at a power plant in Ohio. The ECO<INF>2</INF> pilot unit 
employs the same type of equipment that will be used in commercial 
systems. Because the innovation of ECO<INF>2</INF> is in its process 
chemistry, not in new industrial equipment, the risk in scaling from 
the pilot scale to commercial scale carbon capture and sequestration 
(CCS) projects is manageable. Commercial scale ECO<INF>2</INF> 
demonstrations (120-MW; one million tons of CO<INF>2</INF> capture 
annually) are planned to be online in 2012, with the captured 
CO<INF>2</INF> to be used for enhanced oil recovery operations.
Technology Description
    ECO<INF>2</INF> is a scrubbing process that uses an ammonia-based 
(not amine) solution to capture 90 percent CO<INF>2</INF> from the flue 
gas. The CO<INF>2</INF> capture takes place after the nitrogen oxides 
(NO<INF>X</INF>), sulfur dioxide (SO<INF>2</INF>), mercury and fine 
particulate matter is captured using ECO technology or other air 
pollution control system. Once CO<INF>2</INF> is captured, the 
resulting solution is regenerated to release CO<INF>2</INF> and 
ammonia. The ammonia is recovered and returned to the scrubbing 
process, and the CO<INF>2</INF> is processed into a form that is 
sequestration ready. Ammonia is not consumed in the scrubbing process, 
and no separate by-product is created.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Incorporation of Powerspan's ECO<INF>2</INF><SUP>'</SUP> carbon 
capture process with the commercially available multi-pollutant control 
ECO <SUP>'</SUP> process.
Technology Development
    Powerspan has been developing the CO<INF>2</INF>-capture process 
since 2004 in conjunction with the U.S. Department of Energy (DOE) 
National Energy Technology Laboratory under a cooperative research and 
development agreement. In December 2007, Powerspan announced it 
exclusively licensed a patent for the process from the DOE. The patent 
granted to the DOE represents the only patent issued in the U.S. to 
date covering a regenerative process for CO<INF>2</INF> capture with an 
ammonia-based solution. Powerspan has conducted extensive bench-scale 
testing to establish the effectiveness of the process for 
CO<INF>2</INF> capture, and has made improvements to the subject 
patent. The testing has also established the design parameters for the 
ECO<INF>2</INF> pilot unit in operation at FirstEnergy's R.E. Burger 
Plant in Shadyside, Ohio.
ECO<INF>2</INF> Pilot Project
    Commissioning was completed and ECO<INF>2</INF> pilot testing began 
at FirstEnergy's Burger Plant in December 2008. The ECO<INF>2</INF> 
pilot processes a 1-MW slipstream drawn from the outlet of the 50-MW 
Burger Plant ECO unit. It is designed to produce approximately 20 tons 
of sequestration-ready CO<INF>2</INF> per day while achieving a 90 
percent capture rate. The pilot system is expected to run through 2009.
    The ECO<INF>2</INF> pilot will demonstrate CO<INF>2</INF> capture 
through integration with the ECO multi-pollutant control process. 
Operation of the pilot will confirm process performance and energy 
requirements. The pilot program will also provide the basis for cost 
estimates while preparing the technology for the commercial scale CCS 
demonstrations planned to be online in 2012.
Scalability of ECO<INF>2</INF> to Commercial Scale Projects
    Although the ECO<INF>2</INF> process is new and proprietary, the 
innovation is in its process chemistry. The equipment required for 
operation of commercial ECO<INF>2</INF> systems (e.g., large absorber, 
regenerator, heat exchangers, pumps, gas dryer, etc.) are commercially 
available at the required scale. Therefore, once the pilot scale 
demonstration of the ECO<INF>2</INF> process is completed, the scale up 
risk to commercial size systems is manageable. An independent 
engineering study focused on ECO<INF>2</INF> scaling risk determined 
that the ECO<INF>2</INF> pilot plant will provide sufficient design 
information to confidently build commercial scale systems up to 760-MW, 
supporting that ECO<INF>2</INF> technology scaling risk is manageable.
ECO<INF>2</INF> Commercial Demonstration Projects
    Basin Electric Antelope Valley Station--In March 2008, Basin 
Electric Power Cooperative and Powerspan announced the selection of the 
ECO<INF>2</INF> process for a 120-MW commercial demonstration at Basin 
Electric's Antelope Valley Station located near Beulah, North Dakota. 
The selection of the ECO<INF>2</INF> process is the result of the first 
competitive solicitation process for a CO<INF>2</INF>-capture 
demonstration at a coal-fired power plant in the U.S. The Antelope 
Valley project is designed to capture approximately one million tons of 
CO<INF>2</INF> annually which will be fed into an existing 
CO<INF>2</INF> compression and pipeline system owned by Basin 
Electric's wholly-owned subsidiary, Dakota Gasification Company. Dakota 
Gasification Company is the only company in the U.S. that captures 
CO<INF>2</INF> from coal and delivers it for enhanced oil recovery 
operations. Since 2000, Dakota Gasification has been delivering 
CO<INF>2</INF> from its coal gasification facility, the Great Plains 
Synfuels Plant, to oil producers in Saskatchewan, Canada.
    In June 2008, Powerspan successfully completed a feasibility study, 
which confirmed that there are no technical limitations in deploying 
the ECO<INF>2</INF> process at the plant. In January 2009, the project 
was approved for up to a $300 million loan from a USDA Rural Utilities 
Service program for early CCS demonstration. Based on successful 
completion of detailed engineering studies and obtaining of necessary 
permits, the Antelope Valley project is expected online in 2012.
    NRG Energy WA Parish Plant--In November 2007, NRG Energy, Inc. and 
Powerspan announced their memorandum of understanding to commercially 
demonstrate the ECO<INF>2</INF> process at NRG's WA Parish plant near 
Sugar Land, Texas. The 125-MW equivalent CCS demonstration will be 
designed to capture and sequester about one million tons of 
CO<INF>2</INF> annually. The ECO<INF>2</INF> demonstration facility 
will be designed to capture 90 percent of incoming CO<INF>2</INF> and 
the captured CO<INF>2</INF> is expected to be used in enhanced oil 
recovery in the Houston area. The Parish plant is expected to be online 
in 2012.
About Powerspan and ECO Multi-Pollutant Control Technology
    Powerspan Corp., based in New Hampshire, has been developing and 
commercializing advanced clean coal technology since its inception in 
1994. Powerspan's most significant technology success to date has been 
the development and commercialization of its patented Electro-Catalytic 
Oxidation (ECO) technology, which is an advanced multi-pollutant 
control technology to reduce emissions of sulfur dioxide 
(SO<INF>2</INF>), nitrogen oxides (NO<INF>X</INF>), mercury (Hg), and 
fine particulate matter (PM<INF>2.5</INF>) in a single system.
    For over 5 years, Powerspan has successfully operated a 50-MW scale 
ECO commercial unit at FirstEnergy's R.E. Burger Plant in Ohio. This 
unit has demonstrated that the ECO process is capable of achieving 
outlet emissions below current Best Available Control Technology 
standards for coal-fired power plants. The ECO process also produces a 
valuable fertilizer product, avoiding the landfill disposal of flue gas 
desulfurization waste. Furthermore, the ECO system uses less water 
because it requires no wastewater treatment or disposal.
    In June 2007, American Municipal Power-Ohio (AMP-Ohio) announced 
its commitment to install our ECO-SO<INF>2</INF> multi-pollutant 
control technology on its proposed 1,000-MW American Municipal Power 
Generating Station in southern Meigs County, Ohio. In January 2009, 
AMP-Ohio announced the selection of Bechtel as its engineering, 
procurement and construction firm, and granted the firm a limited 
notice to proceed on the project. AMP-Ohio will use our ECO-
SO<INF>2</INF> technology as an SO<INF>2</INF>, mercury, and fine 
particulate matter control option for its strong environmental 
performance and potential to add our ECO<INF>2</INF> carbon capture 
technology.
                                 ______
                                 
                               Appendix B
                     Principles for CCS Incentives
    1. Competitive Award: CCS incentives should be awarded 
competitively based on a reverse auction (incentives awarded to the 
low-cost bidders per ton of CO<INF>2</INF> captured and sequestered) 
for the following reasons:

  <bullet> This would preserve the primary objective of a cap and trade 
        program, which is to minimize cost of compliance, while also 
        providing a market signal on the real costs for early CCS 
        installations.

  <bullet> Current climate legislation proposals, which arbitrarily set 
        CCS incentive prices, would result in less cost-effective CCS 
        technologies being subsidized, while plant owners/developers 
        and regulators gain little or no information on what real CCS 
        costs are.

  <bullet> Arbitrarily setting CCS incentive prices would distort the 
        market and support technologies that may not otherwise survive 
        in a non-subsidized market. It would also create a windfall 
        profit opportunity for the lowest cost CCS solutions and 
        unnecessarily increase the cost of CCS incentives to the 
        government.

  <bullet> Knowing actual CCS costs is extremely important to plant 
        owners, technology developers, investors, and regulators in 
        evaluating future investment and regulatory decisions.

  <bullet> Competitively awarding CCS incentives is consistent with how 
        renewable portfolio standards are normally administered. Market 
        participants--power suppliers, regulated distribution 
        companies, and state regulators--understand this process. 
        States set a standard for the amount and type of renewable 
        energy desired, and the potential suppliers respond to 
        competitive solicitations to provide the renewable energy. The 
        Federal Government could effectively implement the same type of 
        approach for CCS projects/incentive awards.

    2. Long-term Price Certainty, Factoring in CO<INF>2</INF> Emission 
Allowance Value: CCS incentives need to provide long-term price 
certainty and factor in the value of CO<INF>2</INF> emissions 
allowances because:

  <bullet> CCS projects will likely be financed over 15 to 30 years. 
        Current climate legislation proposals award CCS incentives over 
        a fixed period of time (i.e., 10 years) that is too short to 
        finance most projects.

  <bullet> CCS incentives would be most economical for the government 
        if they factor in the increasing value of CO<INF>2</INF> 
        emission allowances over time.

    <ctr-circle> For example, if the CCS project developer needs to 
            assure a price of $40 per ton of CO<INF>2</INF> over 20 
            years to finance the project, the government could 
            guarantee that price as an annual subsidy over the required 
            term, after the value of avoided CO<INF>2</INF> emissions 
            are subtracted. As the value of CO<INF>2</INF> emissions 
            allowances rise, the amount of annual CCS subsidy the 
            government is required to pay would decrease, while the 
            project developer would still obtain the required price 
            assurance to finance the project.

  <bullet> As the value of CO<INF>2</INF> emission allowances rises 
        over time, the percentage of allowance auction proceeds 
        received by the government that are needed to support the CCS 
        incentives will decrease.

  <bullet> Current climate legislation proposals do not account for the 
        added value of CO<INF>2</INF> emission allowances created by 
        the CCS project or the fact that emission allowance values 
        would be increasing over time. This approach creates a 
        potential windfall profit opportunity for the early CCS 
        adopters and unnecessarily increases the cost of CCS incentives 
        to the government.

    3. CCS Project Size: The primary objective of CCS incentives is to 
demonstrate CCS technology at commercial scale to accelerate market 
acceptance and deployment. In order to demonstrate CCS as commercially 
viable, a minimum project size criteria should be established:

  <bullet> Experts such as MIT, DOE, and EPRI have established a 
        minimum size of 1,000,000 tons of CO<INF>2</INF> per year for 
        CCS projects to be considered ``commercial scale.'' Once the 
        minimum CCS project size is met, preference should be given to 
        larger projects.

    4. CO<INF>2</INF> Capture Rate: In order to meet the objective of 
stabilizing GHG concentrations in the atmosphere, large stationary 
CO<INF>2</INF> sources will need to capture and sequester a high 
percentage of their CO<INF>2</INF> emissions (i.e., * 90 percent). 
Therefore, CCS incentives should establish a minimum standard for 
CO<INF>2</INF> capture (e.g., 80 percent) and should favor projects 
that capture higher percentages of CO<INF>2</INF>.

  <bullet> Available technology from leading suppliers has shown the 
        ability to capture 90 percent CO<INF>2</INF>. Therefore 
        establishing a minimum CO<INF>2</INF> capture rate as high as 
        80-90 percent is technically feasible and commercially 
        acceptable.

  <bullet> CCS projects will normally require 3-4 years to implement. 
        An incentive program that encourages CCS to be demonstrated in 
        sequential steps (e.g., 50 percent then 80 percent) would 
        unnecessarily delay deployment of the high capture rate CCS 
        projects needed to combat climate change and increase the cost 
        of CCS incentives to the government.

    5. Amount of CCS Incentives; Timing of Auctions; Technology 
Diversity: The amount of CCS incentives in tons of CO<INF>2</INF> 
should be based on the following factors:

  <bullet> The need to demonstrate CCS at commercial scale in a number 
        of different configurations for both plant type and geological 
        storage type. All large industrial sources of CO<INF>2</INF> 
        should be considered equally. However, the government should 
        not try to pick technology winners and losers. The primary 
        driver in CCS incentive awards should be lowest cost per ton, 
        with at least three different CO<INF>2</INF>-capture 
        technologies selected to promote technology diversity. This 
        would facilitate the creation of a competitive supplier market 
        of the most cost-effective technologies.

  <bullet> The need to avoid early market responses to a CO<INF>2</INF> 
        emission cap, such as a rush to gas-fired power generation, 
        which may not be sustainable after CCS is commercially proven 
        and CO<INF>2</INF> allowance prices rise to where CCS would be 
        deployed without incentives.

  <bullet> The need to spread out incentives so that multiple CCS 
        projects are awarded each year for at least 5 years as the 
        current pace of technology evolution is great and the CCS 
        incentive program should take advantage of and benefit from 
        this rapid pace of improvement.

  <bullet> The near-term need to stimulate the economy. CCS projects 
        normally require 3-4 years to implement and create a great deal 
        of economic activity over their entire duration. However the 
        cost of the CCS incentive program does not begin until 
        CO<INF>2</INF> sequestration is started upon project 
        completion. For example, a 5,000,000-ton per year CCS project 
        could cost $750 million in capital expense to implement over 
        the first 4 years. However, with a $20 per ton net CCS 
        incentive, it would only require government support of $100 
        million beginning in year 5 and decreasing annually from there.

    6. Qualifying Criteria: Projects that apply for CCS incentives 
should meet certain qualifying criteria. Qualifying projects should:

  <bullet> Be new (existing projects that capture and sequester 
        CO<INF>2</INF> should not qualify).

  <bullet> Certify that they have all required permits or will have 
        within 12 months of award.

  <bullet> Certify that they have all required financing or will have 
        within 12 months of award.

  <bullet> Certify that they are scheduled to break ground within 12 
        months of award and have scheduled project completion within 4 
        years after ground breaking.

    <ctr-circle> Projects that receive CCS incentive awards but are not 
            able to complete permitting, financing, and groundbreaking 
            within 12 months of award should forfeit the CCS incentive 
            (but may apply again).

  <bullet> Not be in any way disadvantaged by having received other 
        types of government support such as loan guarantees, grants, 
        and tax incentives.

    7. Sequestration Issues: Existing CO<INF>2</INF> pipelines used for 
enhanced oil recovery (EOR) operations can support several new, large-
scale CCS projects. The CCS incentives should be structured so as not 
to disadvantage these opportunities in any manner as they will likely 
be the lowest-cost and nearest-term projects available to demonstrate 
commercial scale CCS. However, in order to incentivize broader CCS 
deployment, the following sequestration issues need to be resolved:

  <bullet> Legal and permitting requirements for geological 
        sequestration including standards for measurement, monitoring, 
        and verification (MMV).

  <bullet> Long-term liability for sequestered CO<INF>2</INF>.

  <bullet> Incentivizing CO<INF>2</INF> pipeline construction at 
        optimum scale. CO<INF>2</INF> pipelines benefit from economies 
        of scale up to about 24 inches in diameter. This size would 
        provide CO<INF>2</INF> capacity for 3-4 large-scale CCS 
        projects (nominally about 15 million tons per year; equivalent 
        to 2,000 MW capacity at 90 percent CO<INF>2</INF> capture). 
        Therefore preference should be given to CCS projects that 
        create extra capacity by constructing pipelines or other 
        infrastructure that could be used by multiple CCS projects.

    The Chairman. Thank you very much.
    I'll start with questioning, for 5 minutes, and we'll go in 
order, which will be Senator Hutchison, Senator Begich, Senator 
Kerry, Senator Snowe, Senator Klobuchar.
    Dr. Killeen, is climate change reversible?
    Dr. Killeen. Climate change over long periods is 
reversible. The Earth has experienced changes, that are natural 
changes, that have been large in the geologic record; however, 
in terms of the human experience, generations, we're going to 
be living in an era where the sea levels are going to be rising 
for centuries, and that--the global mean temperatures are going 
to be rising to some level that's going to be determined by our 
societal actions. So, reversibility on the time scales of 
societal decisionmaking is probably not on the cards. So, 
that's why we talk about smart adaption science, because we are 
going to have to adapt to the changing circumstances that are 
already built into the system. And we talk about smart 
mitigation science, which speaks to the ultimate stabilization 
or least restrictions are the most severe outcomes that could 
occur over the next few centuries.
    Returning--reversing to the pre-existing climate would 
require, not just reduced emissions, but going back to the 
concentrations of greenhouse gases in the atmosphere. And 
that's why mitigation science is actually--mitigation pathways 
are difficult, because it's not enough to reduce emissions--
that slows down the process--you have to----
    The Chairman. So, I take your answer----
    Dr. Killeen.--deal with concentration.
    The Chairman.--not to be yes, but to be no.
    Dr. Killeen. No, in terms of practical considerations----
    The Chairman. OK. Now, explain to me a little bit more why. 
Some people say that once you put carbon dioxide in the air, 
it's up there for 30 years; others suggest that carbon dioxide 
due to human activities stays in the atmosphere for 1,000 
years. Now, I don't care which it is; it's horrendous.
    Dr. Killeen. It's----
    The Chairman. Why is it irreversible?
    Dr. Killeen. It's actually both. The estimates are that 
about 20 percent of the carbon that's in the atmosphere due to 
anthropogenic human-induced emissions will reside sort of the 
order of magnitude of thousands of years. Other components of 
the reservoir will cycle more rapidly through the ocean and 
uptake in the land. There are some significant scientific 
questions about the degree to which the ocean and the land can 
continue to absorb as much carbon as they have been absorbing 
over the last century. That's one of the scientific questions 
that I allude to in my----
    So, it's a--it is a complex, but not over--not 
impenetrable, set of scientific questions. We're dealing with a 
relatively simple molecule, three atoms. We're dealing with an 
atmosphere. We're dealing with a relative balance. The 
thermodynamics is pretty well understood. The residence times 
are dependent on a lot of factors, including weather factors. 
But, notably, the uptake of carbon by the living biosphere and 
the oceans--and there are some indications in recent papers 
that that may be plateauing, at least. So, there may be some 
diminution of the ability of the rest of the system to reabsorb 
carbon from the atmosphere.
    So, when we're looking at long-term records, it's very 
important to crack that scientific problem. Where--how fast can 
carbon be taken back out of the atmosphere and stored in other 
repositories, in the ocean and in agricultural processes? And 
for how long will that carbon be sequestered there? There are 
some open scientific questions that need to be addressed.
    The Chairman. My time's running out. You say 30 or 1,000, 
either one could be true. I talked, in my opening statement, 
about gaps in scientific knowledge. I'd like you to address 
that. We, the Commerce Committee, have jurisdiction over the 
National Weather Service; they have a lot to say about whether 
you're going to get a 20-percent drying-up of rivers in Arizona 
and other places in the Colorado River. But, what is it that we 
don't know, scientifically, that we need to know?
    Dr. Killeen. We need to know the rate at which carbon will 
be taken out of the atmosphere and absorbed in the ocean and in 
the land matter over the future decades. We need to know that 
number. It's a critical number for looking at the long-term 
outcome.
    Right now--what matters is the concentration of greenhouse 
gases in the atmosphere; it's how many there are, how many 
molecules there are in the atmosphere. Every molecule plays a 
role in warming the planet. So, it's a quantity of carbon 
dioxide. That's controlled by two factors: emissions in and 
sinks out. And so, it's a balance between the emissions and the 
sinks. And right now, the average rate of accumulation of the 
quantity of greenhouse gases in the atmosphere is about 2 
percent per year over the last decade. We need to get that 
number down. And that number is going to be a factor of both 
the emissions in and the sinks/sources out. And there are 
scientific uncertainties that we need to address, in terms of 
the role of the oceans, the Earth's oceans, which take up one-
third, today, of the carbon that's put into the atmosphere is 
absorbed in the oceans--a full third of it--and that leads to 
ocean acidification----
    The Chairman. Acidification problems.
    Dr. Killeen. That's the acidification problem, yes.
    So, the overall carbon cycle is fairly well known. I would 
say there are no ``gotchas'' or no surprises that are going to 
throw our whole theory out of the window. But, we need to fine-
tune that understanding, particularly on the sink side. The 
emissions side is a function of economic development and the 
kinds of issues that my colleagues are being--are raising. The 
sink side, how fast you can take carbon out of the atmosphere, 
is a function of our understanding of ecosystem function and of 
oceanographic function.
    The Chairman. Doctor, thank you very much.
    Kay Bailey Hutchison.
    Senator Hutchison. Thank you.
    My question is for Dr. Killeen. If anyone else wants to 
jump in on this.
    My area of interest, and actually, for the last two 
Congresses, I have introduced legislation on weather 
modification research. I'm told that we don't even have the 
data, for instance, where there is cloud-seeding in Colorado, 
if there is any difference in rainfall in Wyoming or Montana, 
and that that would be an area where, at least if we begin to 
track, that would be the basis of research. My original 
intention was to put it in NOAA, a weather modification 
research opportunity and tracking of weather, not only where 
you might have modification efforts, in the surrounding areas, 
in tracking the wind currents and directions, but also, for the 
future, to see what works and what doesn't. We're just seeing 
so much more of an intensity in our weather now than we have 
seen before.
    My question to you is, do you agree that we need to have 
this kind of tracking and research? And where would you best 
place it? Is NOAA the right place? Or the White House Office of 
Science? Where would you say we would have the best traction 
for this kind of research?
    Dr. Killeen. Well, let me first fully agree with you that 
this is a topic that's worthy of a research effort. As the 
planet warms, there are greater rates of evaporation from the 
world's ocean, there's more latent heat energy that is produced 
in the atmosphere, and there are greater levels of water vapor. 
So, the whole hydrological cycle is intensified. That means we 
get more severe weather at times. We get more evaporation, so 
we get more drought. It's paradoxic that we get more drought 
and you also get more severe--episodes of severe rainfall.
    The system is intensified, and it--but, it's predictable, 
at some level. And I think today we don't know quite the level 
of predictability of rainfall and severe weather events in 
atmospheric phenomena. But, that's coming.
    There was a big effort 30 years ago, as you know, to look 
at weather modification studies. And in some ways, that was 
premature, because we didn't have the observational tools at 
that time, we didn't have the polarimetric radar to look at the 
cloud condensation nuclei and their shapes, and to determine 
the physical processes that lead to precipitation out of 
clouds, the types of clouds. We now have those kind of 
capabilities--aircraft, radars, et cetera. So, we're much 
better positioned now than we were 30 years ago to really 
investigate the physical mechanistic processes that drive to 
severe weather events. And I--so, I think it is a very 
important area. And, of course, it's connected to climate 
because of this intensification of the hydrologic cycle that I 
alluded to.
    Where it should be in the government? I think that the 
Federal agencies are interacting very well. There are experts 
in all of these Federal agencies who can appreciate this kind 
of project. Within the National Science Foundation, we have a 
place to go for research proposals dealing with this, and they 
will be effectively reviewed and funded when they come in.
    I think what's needed is a stimulus to the scientific 
community that opens the door to new and pioneering, 
transformative research in this area.
    So, I like the question.
    Senator Hutchison. Do you think that the National Science 
Foundation would be the better policeman for where the research 
would go? Or, do you think NOAA should be that agency? How 
would you, if you were advising me on how to structure where it 
goes and if there is some added involvement by one or the 
other, where would you say?
    Dr. Killeen. I would think partnerships are the right 
approaches. NOAA has more operational responsibilities and 
service responsibilities for stakeholders. NSF is the basic 
research organization, where our investigators can look at the 
nitty-gritty aspects of what certain types of clouds do under 
certain circumstances, can model the paths of the hurricanes, 
and so forth. So, I think it's a research-to-operations 
transition, and both agencies have their natural roles in that.
    Senator Hutchison. I just have a couple of seconds left. 
Let me just ask you, if we start gathering the data, do you see 
a time when we could also do mitigation? If the science said a 
hurricane that is a level-2 in the Pacific, well, Atlantic, 
actually, off the coast of Florida, and when tracking, it turns 
into a 4 when it gets to Florida and then on into the Gulf of 
Mexico, that, by having the research, there is a time at which 
we might be able to mitigate it out in the Atlantic Ocean so 
that it isn't a 4 when it gets to Florida or Alabama or 
Louisiana or Texas. Is that something that conceptually, that 
we might look forward to?
    Dr. Killeen. That's beyond our reach today. It's probably 
beyond our reach in the next 10 years. But, I could--I could 
conceive of such kinds of things in the long term. As we 
further understand the nonlinear development of hurricanes--
they develop, after all, from very small perturbations off the 
coast of Africa, often, and they--some of them grow, and some 
of them diminish. And so, I could imagine intervention--I could 
imagine it, intervention strategies, but I wouldn't want to 
even----
    Senator Hutchison. I know.
    Dr. Killeen.--imply that----
    Senator Hutchison. We don't----
    Dr. Killeen.--we're anywhere----
    Senator Hutchison.--have the research yet,----
    Dr. Killeen.--close to that today. Yes.
    Senator Hutchison. --but, I would just hope that, if we 
start with research, that eventually we'll be able to go in 
that direction.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Hutchison.
    Senator Begich.

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much, Mr. Chairman. Thank 
you for holding this hearing.
    And as the Senator from Alaska, I consider our State ground 
zero when it comes to climate change, as well as Arctic policy. 
There's a combination of issues in Alaska. And, you know, we 
see it firsthand. If it's from the north, with the Arctic 
melting, or in interior Alaska, where the permafrost is 
melting, or when you look to western Alaska, where villages 
have lost literally, several, several feet of land, or you go 
down to the southeast and you see the fishing area, with 
acidification of water. So, I have several questions, but I'm 
going to----
    Dr.--is it Killeen? I have a couple of questions. But, as a 
good doctor, I want you to keep it short, only because we get 
only a few minutes. Because, Dr. Jacobs, I want to ask you some 
questions, because I'm intrigued by your testimony, because we, 
as policymakers, sometimes get wrapped around the research and 
the science, and, I like to describe myself as ``a mayor'' 
which I have been, as ``a mayor that just happens to be a 
Senator,'' because, as a mayor, you have to be practical. And 
so, your testimony was very interesting to me, in a sense of 
that next step.
    But, quickly, in your written testimony, you had some 
comments on permafrost in Alaska; 80 percent of its ground is 
permafrost, and the potential of, you know, the massive methane 
gas release, give me some commentary on that, if you can, and 
how you see that. I know you had some in your written 
testimony, but if you could verbalize that, I'd appreciate it.
    Dr. Killeen. Yes, it's a very important study that needs to 
be done, intensive study of the permafrost, because there's a 
lot of, as you know, carbon contained in the permafrost.
    Senator Begich. Correct.
    Dr. Killeen. There's deep permafrost, which will reside for 
many eons, I'm sure, and then there's near-surface ground 
permafrost, on which homes are built, that can degrade quickly, 
and is degrading quickly.
    There are some unknowns there, and there's scientific 
research that's needed to fully understand the rate at which 
permafrost is becoming degraded, and the rationale--the reasons 
for that.
    And if you look back at ancient climate change, there's 
evidence that, in fact, temperature increases led the 
production of greenhouse gases, which would be a positive 
feedback effect. And so, there is concern that we need to fully 
understand the role of permafrost in the energy budget.
    I would say the IPCC models that were used to produce the 
assessment did not include the effects of methane released in 
permafrost, so it's one of these missing gaps that the 
Chairman----
    Senator Begich. It's another gap----
    Dr. Killeen. Another gap.
    Senator Begich.--in the research and science.
    Dr. Killeen. Another gap. And--but, it's a very significant 
one that needs--and there are many researchers honing in that 
problem right now.
    Senator Begich. Very good. And one last question, on 
research, in regards to acidification of the waters. And, you 
know, Alaska produces 62 percent of the natural fish stock for 
this country, and obviously we have about 25-30,000 people 
employed, directly or indirectly, in this industry. Can you 
give me any thoughts of where research gaps might be in regards 
to studying the impacts of acidification, not only from the 
science, but also from the job component?
    Dr. Killeen. Yes, I think that's another very important 
area that needs much more work. The role of increased 
acidification on hard-shelled corals and phytoplankton is 
fairly well known, but what that means for the web of life in 
the oceans and the degree to which individual species will be 
responding over the decades is a big question. We know from our 
experience that some management strategies have worked for some 
fish stocks and have not worked for other fish stocks. And the 
scientific reasons for that difference are still to be 
determined.
    So, I think there's an important area of oceanographic 
biology, which includes the whole ecosystem response to changed 
chemistry in the ocean, which is an important area of 
scientific research, as well.
    Senator Begich. Great. Thank you very much.
    Dr. Killeen. Were they short enough, Senator?
    Senator Begich. That was very good.
    Dr. Killeen. Thank you.
    Senator Begich. Thank you. We get limited time here.
    Dr. Jacobs, your testimony was interesting. And I did 
notice you smiled a little bit when a couple of folks were 
talking, because, probably as you know, I'm trying to hone in, 
on how we deliver the message to the average individual out 
there, the voter, to understand the economic impacts, is how 
I've always portrayed it. Your testimony, written testimony, 
was very good. Can you if there are one or two things that we 
could do, as policymakers, to better communicate what the issue 
of climate change means to the average person, what would those 
be, from your perspective?
    But, let me just say one thing, though, because I know most 
people, when you talk about emissions, they look at you with a 
blank eye, you know, they stare, they don't have any clue what 
you're talking about, anybody. So, give me your one or two hits 
that we would do.
    Ms. Jacobs. Well, I guess I could start with an anecdote, 
which is a very brief one. You know, essentially, we were 
recently talking to some of the officials from the City of 
Phoenix, and they said, ``Well, our city council really does 
not care about or understand climate change, but they do care 
about water-supply reliability, and it keeps them up at 
night.'' So, clearly the issue is connecting the science to the 
things that people really care about and the things that affect 
their livelihoods and their hearts. And so, clearly the 
landscapes they care about, the people they care about, and 
their source of--you know, their economic interests, are the 
ways to get to people. And, frankly, it's remarkable how few 
people have actually picked up on what's going on, given that 
it is happening all around us and the evidence is there.
    Senator Begich. Yes, I'll leave on this question. It's one 
more for later, and I've run out of time. But, if you have not, 
or if you have, I'd be interested in maybe later letting my 
office know your response to. I know the U.S. Conference of 
Mayors has climate green page. Mayors have been very aggressive 
on this and kind of bringing it down to the street level. I'd 
be interested in what you see as good examples of how they have 
delivered the message. I know, as a mayor, what we've done, but 
I'd be very curious in your commentary on that. And not right 
now, but, you know, at a later time, because of time.
    Ms. Jacobs. Thank you.
    Senator Begich. Thank you.
    The Chairman. Thank you, Senator Begich.
    Senator Kerry.

               STATEMENT OF HON. JOHN F. KERRY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Kerry. Thanks, Mr. Chairman. Thank you for doing 
this hearing. It's really important.
    Over the last 8 years, the emissions have grown at a rate 
four times faster than they did in the 1990s. And the fact is 
that every single climate change model that predicted what is 
going to happen, from the IPCC, the U.N. Panel, is now being 
exceeded. There was a recent study by Fletcher, MIT Heinz 
Center, that shows that if we take the best offering of every 
country in the world that has offered to do something, and if 
we were, in fact, to complete it, we would still wind up at 
about 550 parts per million, 600 parts per million, by 2050, 
which is well above what scientists tell us is permissible. 
Correct? As well as at a temperature of about 4 degrees--that's 
by 2050--it will continue up to 6 to 9 degrees by the end of 
the century if we don't make changes. Is that a fair statement 
of sort of what the latest science is?
    Dr. Killeen. Yes, sir, I think it--that's fair. There's 
some debate about what level is actually constituted dangerous 
interference with the climate, but there's a rough consensus 
about those numbers that you quoted, 500----
    Senator Kerry. And previously, the science said, ``Well, we 
can tolerate 550 parts per million.'' Then a few years ago they 
moved to 450 parts per million. And now the science is telling 
us that's wrong, we have to try to stay at 350 parts per 
million and hold the temperature increase to 2 degrees 
Centigrade. Is that accurate?
    Dr. Killeen. I think most scientists would say lower is 
better. There are some practical issues with regard to where 
the stabilization point, in terms of parts per million carbon 
dioxide in the atmosphere, is. And I think that debate, which 
you're discussing, is raging. Where--what constitutes dangerous 
interference is the----
    Senator Kerry. But, the problem is, if we get it wrong, 
it's catastrophic. If they're wrong and we've taken action, the 
best that we've done is improved health, responded to the 
environment, created jobs, improved our security by moving off 
of dependence on fossil fuels, and so forth. I mean, it seems--
the balance in judgment of public policy falls on the side of 
caution and precaution.
    Dr. Killeen. I would--if you're asking me----
    Senator Kerry. Yes.
    Dr. Killeen.--Senator, I would certainly believe, with my 
colleagues here, that we're going to be moving to a low-carbon 
economy, we should do it easily, readily, quickly, as fast as 
we could, to avoid the most severe consequences of these 
numbers. I should also say----
    Senator Kerry. Let me follow up on something quickly, if I 
can, and I'm sorry to interrupt you, but I wanted to follow up 
with something that Senator Rockefeller said, because I won't 
have time to ask Mr. Alix a couple of questions.
    Just very quickly, the 30 years to 1,000 years Senator 
Rockefeller was asking about, the 30 years, the variation 
depends, I assume, on the type of greenhouse gas, because what 
I'm led to understand is that the CO<INF>2</INF> that's up 
there has a half-life of approximately 100 years, 80 to 100 
years or so. Is that correct?
    Dr. Killeen. Yes, that order of magnitude.
    Senator Kerry. And that means that whatever we put up there 
today is going to continue to do damage for the next 100 years.
    Dr. Killeen. And a small component of it will continue to 
have interactions over the next 1,000 years, and that's where 
the 1,000-year number comes from.
    Senator Kerry. The interaction----
    Dr. Killeen. About 20 percent.
    Senator Kerry.--is over 1,000 years.
    Dr. Killeen. Yes. Yes.
    Senator Kerry. But, the half-life of the gas, of the 
CO<INF>2</INF> itself is about 100 years.
    Dr. Killeen. Yes. With--it's a mix of processes. There's a 
mix of sink processes. Some of them go faster than others, so 
you can----
    Senator Kerry. Right.
    Dr. Killeen.--you can consider it as not a simple one-
answer problem----
    Senator Kerry. I gotcha.
    Dr. Killeen.--is what I'm saying.
    Senator Kerry. So it's a variation based on the interaction 
of the gas, but there's no question but that it does that 
damage over the continuing period of time?
    Dr. Killeen. Carbon dioxide in the atmosphere will have 
long-lived consequences of decades and hundreds of years.
    Senator Kerry. Now coming therefore to your process, Mr. 
Alix, you're talking exclusively about a sequestration, a 
capture, that would then be made enough only for geologic 
sequestration?
    Mr. Alix. Primarily, yes.
    Senator Kerry. There are four companies now doing non-
geologic processing, taking gas, flue gas out of the flue, 
capturing 90 percent, as you've said, but transforming it into 
a calcium carbonate substance that can be used for 
construction. Are you familiar with that?
    Mr. Alix. Yes, I am.
    Senator Kerry. Would your capture process lend itself to a 
similar, could it lend itself to a similar transformational 
non-geologic storage?
    Mr. Alix. I think once you have the raw pure 
CO<INF>2</INF>, there are many things that can be done. In 
general, those processes, however, are limited by the amount of 
basic product that can be used and also locational issues, like 
proximity to seawater, issues like that. So we think those are 
exciting processes, but, in general, when you look at where 
coal plants are and the magnitude that needs to be addressed, 
sequestration, we believe, is probably 80+ percent of the 
answer.
    Senator Kerry. Mm-hmm. And the sequestration, you're 
talking about compressing that gas,----
    Mr. Alix. Yes.
    Senator Kerry.--correct?
    Mr. Alix. Yes.
    Senator Kerry. By compressing it, does it stay compressed 
through the transfer process and into the sequestration or does 
it re-expand in the sequestration?
    Mr. Alix. It stays that pressure once it's put under 
ground.
    Senator Kerry. It stays that pressure?
    Mr. Alix. Yes.
    Senator Kerry. And how complicated is the transfer process 
into the sequestration?
    Mr. Alix. Well, my understanding is basically you have to 
characterize wells, you have to have pores, you have to know 
where it's going, and then there are 3-D monitoring techniques 
to see it.
    Senator Kerry. How do you propel it? Through a pipe? How do 
you transfer it?
    Mr. Alix. Yes, absolutely, through a pipe.
    Senator Kerry. What sends it? Pressure?
    Mr. Alix. Yes, and there are intermittent pipes for long 
pipelines. There are about 500-600 miles of pipelines going 
from Colorado to the Permian Basin for enhanced oil recovery. 
About 40 million tons a year of CO<INF>2</INF> have been used 
over the last 20 years. So there's a great deal of experience 
in both.
    Senator Kerry. This is the same process. We use this, I 
think, in the Dakotas, don't we? In North Dakota,----
    Mr. Alix. Yes.
    Senator Kerry.--there's a process similar?
    Mr. Alix. Yes.
    Senator Kerry. We've been doing the enhanced recovery out 
of that?
    Mr. Alix. Yes.
    Senator Kerry. So this is built on that?
    Mr. Alix. Yes.
    Senator Kerry. All right. My time is up. I appreciate it. 
Thank you for the process and thanks for your testimony.
    The Chairman. Thank you, Senator Kerry. Senator Lautenberg 
was on his way back and he was one of the first people here, so 
when he does come back, I will call on him.
    But now I go to Senator Snowe. Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much to all of you. You 
know, I come from Minnesota, and we believe in science. We 
brought the world everything from the pacemaker to the post-it 
note and we're very glad that in our state that science is 
upfront and center now again in the climate change debate.
    I also serve on the Environmental Committee, so we've had a 
number of hearings with scientists, and I also was able to 
visit Greenland which many people call the ``canary in the coal 
mine'' for climate change. In an area that used to be covered 
in ice, people are now planting potatoes. Places that were 
covered in ice, we're able to land a helicopter on rock. So I 
saw firsthand the effects of climate change in one of our most 
poignant areas.
    I also was seeing when scientists squelched what happens 
when the Center for Disease Control, the head of that, Julie 
Gerberding, her testimony was redacted in front of our 
Environmental Committee, and a lot of the things you talked 
about, the public health effects, Ms. Jacobs, were not able to 
come to light until a whistleblower actually came out and made 
those things known.
    Again, I see hope in that we finally yesterday, Senator 
Snowe and I had a bill for a carbon registry, so that we can at 
least begin counting greenhouse gas emissions that the EPA 
actually just did with the wave of their wand yesterday that 
this is now beginning.
    My question actually as we look at recently, we've heard, 
Dr. Killeen, about the potential for things, as Senator Kerry 
brought up, about things being worse than we thought and part 
of this is due to this idea of methane and what's happening 
with that, and I wondered, the methane gas that's sequestered 
in the Arctic permafrost and I know you mentioned this in your 
testimony and this is one of the reasons given that things 
might actually be worse than we thought in terms of global 
warming.
    Could you expound on that a bit?
    Dr. Killeen. Well, there are several indications that the 
pace of change is happening stronger than anticipated and 
sooner than anticipated for reasons that relate to both 
emission rates which have gone up but also to the response of 
the planet and there are some things that are surprising to 
scientists.
    For example, the Arctic sea ice in the Arctic Ocean has 
degraded much more quickly than the most sophisticated models 
would have predicted and so there's intense work going on to 
understand what's happening to the ice regions.
    The permafrost area, I think, is one that really does 
require intense new work to measure the rates, to look at the 
pathways, et. cetera, and the other thing about potential 
changes, this is a complex planet, made up of interacting 
components, and science is struggling to work the details of 
that as a system.
    It has many components: the ice, the air, the ocean, et. 
cetera, and we may have some surprises in store, and so there's 
a section of the scientific community that's really focused now 
on thresholds and potentially tipping points, things that might 
change.
    If you look at the ancient record of climate, there have 
been events in the past, ancient past where rapid, relatively 
rapid change occurred, prehistorical times, and so there's a 
lot of interest in what might actually tip things out of the 
balance.
    We're dealing with a semi-chaotic system, not a fully-
chaotic system. It is--but it's not fully deterministic either 
in the sense that you lay out the equations and you know 
exactly what's going to happen. So dealing with that kind of a 
system opens the question of how fast and what is the range of 
responses that might be likely.
    We don't today know the number which is the climate 
sensitivity of Planet Earth. If you doubled CO<INF>2</INF>, 
what that planet would actually do. We know, we've got a good 
handle on the range of options and everybody looks at the 
median and says, well, that's where it is, but there are two 
tales, there's a slow tale and a fast tale, and we need to do a 
really good job of understanding how this planet is going to 
respond to these forcing functions.
    So, yes, there's uncertainty on all of those fronts, but it 
does appear that the system is changing at rates that exceed 
what was in the IPCC kind of assessments.
    Senator Klobuchar. Exactly, and that's what they are saying 
themselves, that we're not going to have a new report when we 
go to Copenhagen, I don't think, from IPCC. We just know that 
it seems like it's worse than it is.
    Dr. Killeen. There's a wonderful set of assessment reports 
that the U.S. Government has just produced. I refer to them in 
my--and I have a copy----
    Senator Klobuchar. All right. Well, we'll get that.
    Dr. Killeen.--of these reports.
    Senator Klobuchar. OK.
    Dr. Killeen. They contain the current cutting edge state-
of-the-art on many of these areas.
    Senator Klobuchar. Ms. Jacobs, I just wanted to ask one 
more thing and that was that, Dr. Jacobs, you talked about how 
less people understand, and I guess I look at it a different 
way.
    When I first started talking about this issue, you know, it 
was only kids with penguin buttons that would come up and talk 
to me and it has really changed as, you know, city councils in 
little towns, like Lanesboro, Minnesota, are changing up their 
light bulbs, snowmobilers worried about it because they've seen 
the effects, barge owners worried because the levels in Lake 
Superior are down for the most part at lower levels than they 
were in the past 80 years.
    And I appreciated Senator Begich's question, but I think 
your survey that you cited indicates that only 30 percent of 
Americans considered global warming a priority. When you think 
about the economy and the way it is, I actually do think that's 
not that bad of a number, and I know it's frustrating for you, 
but I tell you there has been a transformation and part of it 
is having a President that is putting this out there and 
talking about it, and the other part of it is talking about 
this in a way where we see the economic opportunity but also 
the economic safety net in how we do cap-and-trade and other 
things to make sure that it's done the right way and that it 
incorporates all of our energy sources, as Mr. Alix was talking 
about.
    So do you at least acknowledge that there has been a 
transformation in that more people are aware of this and seeing 
it as a problem, even though it's not quite where you want it?
    Ms. Jacobs. There's absolutely no question that we are in 
the midst of a transformation in terms of people's 
understanding, but I've been working with water managers on 
this topic since the late 1990s and though I think awareness is 
very much there, the ability to actually embrace the science 
and know what to do about it is not there.
    So we have a lot of people very motivated to try to respond 
but many who really don't know exactly how to.
    Senator Klobuchar. Exactly. Well, very good. Thank you.
    The Chairman. Thank you. As I indicated earlier, Senator 
Lautenberg was first here and therefore I call on Senator 
Lautenberg.
    Senator Lautenberg. Thank you, Mr. Chairman.
    The Chairman. Senator Thune, you will be next.
    Senator Lautenberg. And I'm pleased that this hearing is 
being held. The fact is that this Committee, and I think you 
said it very clearly, has a significant role to play in the 
climate change and certainly our interest is very valuable and 
absolutely the right thing to do.
    What we've seen thus far tells us a lot, so much about the 
threat that is imposed by global warming. I sit on the 
Environment Committee and also they're pursuing an interest in 
what's happening and what we've seen is the Antarctica getting 
warmer. I've been there. I've been to the South Pole, been up 
to Greenland, and when we look at the volume of sea ice that 
has disappeared, over 40 percent, it is frightening.
    As ice melts, the sea levels could rise as much as 20 to 80 
inches by the end of this century, and while in other states, 
Ms. Jacobs, obviously you're seeing the problems with water 
there, what the climate change portends for Arizona and similar 
states, the crucial science of global warming, tracking ocean 
temperatures, reading atmospheric data, does fit significantly 
in the hands of this Committee.
    And one--there's a particular focus that we have here and 
that is that one-third of the greenhouse gas emissions come 
from the transportation sector which this Committee has a 
significant role in and rail travel will be one of those 
solutions, and we know that moving travelers and goods by rail 
uses substantially less energy than moving them by cars or 
trucks. For example, a ton of freight can be moved over 400 
miles on a single gallon of gas. Well, what does that do for 
the environment? Enormous things because it reduces some of the 
truck traffic and certainly automobile traffic if we continue 
to do that.
    So our Committee's got to keep working to make passenger 
and freight rail part of the solution for our ability to make a 
difference in greenhouse gas emissions.
    Now, Ms. Jacobs, what is the problem, as you see it, on the 
water side in your state and neighboring states, the challenge 
that's raised there?
    Ms. Jacobs. Well, we have multiple challenges. One of them 
has to do with just temperature increase alone. When you 
increase the temperature that increases the evaporative rate. 
You lose a lot of moisture from the soil. All of the plants 
take more water, the people take more water. It takes more 
water for energy to cool houses and so forth. So we have both a 
supply side problem and a demand side problem with temperature 
alone.
    What we're understanding now for the first time really is 
that there's an emerging consensus that we'll actually see 
reduced precipitation as well as increased temperatures and 
that combination is actually scaring people quite a bit.
    We don't necessarily expect to see that across the whole 
country, but there is an area in the Southwest and Northern 
Mexico where it looks like most of the climate models are 
anticipating reduced precipitation. So there's a lot to be 
concerned about, particularly with reliability of service water 
supplies.
    Senator Lautenberg. I see the threat of global warming as 
similar to the plagues that mankind experienced and I call this 
the 11th Plague and when I look at my grandchildren and 
concerned about their lives, they're very young now, it has me 
saying why haven't we not paid--raised a question about why 
have we not paid more attention to this at an earlier stage, 
but, nevertheless, we are where we are and the question is are 
the goals that we want to attain realistic and typically those 
who argue the other side of this say, well, the cost of jobs is 
an unacceptable cost, but there is a trade-off.
    The fact is that there are jobs to be obtained as a result 
of the transition to a greener society, to the meeting 
standards that satisfy our need for work as well as our need 
for a better environment, and I ask, Dr. Killeen, at some point 
to the fact that regions, some regions are experiencing cooler 
weather than they normally have and as opposed to elements that 
were a sign that we are not really experiencing global warming.
    What about the science behind this and why cooler 
temperatures in some places prevail?
    Dr. Killeen. If I can respond, I think that's related to 
the fact that 2008 was only the 10th warmest year on record 
rather than the first or second. So 2008 was relatively cool 
and we've been in a relatively plateau in terms of the warming 
trend, but if you look at any of these 10-year cycles, you can 
find periods when you have relatively colder temperatures.
    The 2008 period was marked by La Nina, the opposite of El 
Nino, which tends to cool the--so there's nothing inconsistent 
with the recent temperature records and the global climate 
change theories that are couched in the IPCC documents and 
certainly the modern models. So there's no sense that the--
actually, in fact, everything that's happened in the last 5 
years has reinforced the understanding that was assessed in the 
IPCC.
    Senator Lautenberg. Mr. Chairman, I assume we'll keep the 
record open and that we'll be able to----
    The Chairman. We hope to have a second round. Thank you, 
Senator. Senator Thune.

                 STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Thune. Thank you, Mr. Chairman, and thank you for 
holding the hearing. Thank you to our witnesses today for their 
insightful testimony. This is a complex set of technical and 
practical challenges that we have to face, and I think as 
policymakers we certainly want to be in a position where we're 
making decisions that are based upon the very best science and 
the very best data.
    A lot of proposals to cap and/or reduce carbon emissions 
are going to have a significant cost to our economy and going 
to impact individuals' lives every day and so the stakes are 
pretty high and it's important that we get as accurate 
information about climate change and its potential impact on 
our country and around the world as we possibly can.
    I'm particularly interested, Mr. Alix, in some of your 
testimony and the technologies that you have developed that 
deal with carbon capture and sequestration and the role that 
those are going to play in our future energy supply, and I 
would be curious in knowing perhaps if you could respond to 
this question: what are the primary regulatory challenges to 
implementing the carbon capture and sequestration on a wide-
scale basis?
    Mr. Alix. I think we have the classic chicken-and-egg 
problem where technology developers say that it's commercially 
available technology for CCS which means we'll sell it with 
commercial guarantees, but plant owners cannot point to any 
commercial installations that are operating.
    So there's risk. It's a fair statement and so what we would 
say is, as happened previously with things like catalytic 
converters on our automobiles, the acid rain provisions in the 
Clean Air Act, you have to regulate and you have to have some 
faith in the technology providers to bring this forward, 
commercialize it and then drive costs down because no doubt, as 
we build the larger units and get experience, costs will come 
down.
    The studies by engineering firms all suggest that we should 
have a high degree of success and one of the firms that 
operates in your neighborhood, Basin Electric Power 
Cooperative, is not only doing it successfully at the Great 
Plains Synfuels Plant, and sending its CO<INF>2</INF> up to the 
Weyburn fields but is looking at building the NextGen plant in 
South Dakota and capturing CO<INF>2</INF> and using it for 
enhanced oil recovery.
    So there are a number of sophisticated owners who are ready 
to step forward and install this technology not only on 
existing plants but new plants.
    Senator Thune. We do have an exciting project in Selby, 
South Dakota. Basin Electric has proposed a 700-megawatt 
pulverized coal power plant with post-combustion carbon capture 
and sequestration and Powerspan's technology may prove 
instrumental in making that project a reality.
    When it comes to the issues of siting, permitting, and 
other issues, are there things that can be done at this level 
that would help expedite those types of projects, and are there 
significant differences when it comes to transporting 
CO<INF>2</INF> from natural gas or other forms of pipelines, if 
you're going to get it to some place where you could put it in 
the ground and store it? What sorts of issues does this create? 
What kind of regulatory certainty is it going to take for folks 
to invest in these technologies?
    Mr. Alix. Well, clearly, a cap on CO<INF>2</INF> emissions, 
some sort of new performance standard on coal plants gives the 
owners the idea that you will be regulated for CO<INF>2</INF> 
emissions at some point. So those, I think, are important 
drivers.
    When you get into actual implementation, pipelines that 
carry CO<INF>2</INF> for enhanced oil recovery, what we expect 
to use, either at a gas plant or coal plant, should be the same 
because the CO<INF>2</INF> itself is quite pure, quite dry, no 
matter where it comes from. So it's a carbon steel pipeline.
    There's an optimum size in general to deploy due to 
economies of scale and generally you'd like to put a big 
pipeline in the ground that would carry CO<INF>2</INF> from 
multiple plants instead of each plant having a smaller 
pipeline. So there are some issues there.
    In general, we look more toward enhanced oil recovery 
because those sites will pay for the CO<INF>2</INF> early on. 
They're well characterized. The processes and rules are in 
place. The longer term, I think, a set of standards which the 
EPA has started to develop in their water standards for 
sequestration, some measuring, monitoring, verification rules 
that are broader for not only oil fields but saline aquifers, 
coal seams, et cetera, those rules have to be promulgated by 
the Federal Government.
    They have to include enhanced oil recovery which they don't 
currently and while that's in process, I think the fact that 
those aren't in place and that there's no clear long-term 
liability, I think, determination who will take ownership in 
the decades and millennium to come, I think those are some of 
the issues that also have to be resolved.
    So in the near term, we think enhanced oil recovery is the 
way to go. The rules are there. But long term, there are 
standards that have been developed by some states, like Texas 
and Illinois, that on the Federal level would be helpful.
    Senator Thune. OK. And to get those on the Federal level, 
the agencies have that authority. Is that something that 
Congress would have to direct them to do?
    Mr. Alix. I understand today agencies have the authority on 
requirements to put CO<INF>2</INF> in the ground. In terms of 
liability, I understand that would have to be handled by 
Congress.
    Senator Thune. Right. OK. That would be a role that we 
could play, Mr. Chairman, in this process. I see my time has 
expired. I have some other questions but perhaps I'll submit 
those for the record.
    Thank you all very much.
    The Chairman. Stay around. Thank you. Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Senator Rockefeller. Thank you 
very much for holding this hearing. These witnesses have been 
very, very helpful and I look forward to a lively exchange with 
them.
    When Senator Begich asked the question, you know, how do 
you talk to the average citizen about this issue. I'm from New 
Mexico. You mentioned in your testimony that we're going to see 
less precipitation, at least that's what the models show, and 
I've taken that less precipitation, changing our water, those 
kinds of things and tried to talk specifically about that, and 
one of the ways to do that is they have these models of where 
your particular state would reside in terms of the climate and 
it's very simple.
    You can click on your state and for the case of New Mexico, 
you would drag New Mexico, imagine your mouse and clicking on 
New Mexico and drag it 300 miles to the south which would put 
us way down in Chihuahua, Mexico, and if any of you have been 
to Santa Fe, New Mexico, and then Chihuahua, you know there is 
a huge difference in terms of climate and it shows the dramatic 
change that would occur with our snow pack, for example.
    The snow pack for the City of Santa Fe provides 40 percent 
of the water out of reservoirs and the outflow from the 
mountains. So if you change that dramatically where you don't 
even--you don't have that outflow or if it's significantly 
reduced, you then have to find the water some place else. We're 
mining our aquifers. We're not doing that on a sustainable 
basis and so we run into a very, very difficult water 
situation.
    On top of that, you have the forests, which the trees get 
drier when you have less precipitation and you have more forest 
fires and these are the kinds of things that I think resonate 
with people and I wanted to, first of all, ask you the question 
of how reliable are these models and what I'm talking about in 
terms of mid-term because there's a question I want to follow 
up with, but just your general sense of how reliable are these 
models of what I'm talking about because I'm saying is the 
middle-term or the mid-area in terms of the model, and my 
understanding is the science is saying we're accelerating, 
we're going beyond the middle conservative increase we expect 
in temperature and we're going well beyond that.
    So could you all comment on that, any of you that care to?
    Dr. Killeen. Yes, Senator. I think the models that we have, 
the state-of-the-art climate models that we have today do not 
have the fidelity and the credibility at the regional or at the 
decadal level to really take those numbers to the bank.
    On the other hand, the global-scale predictions are robust 
and credibility, and I think in my testimony, I was trying to 
make the point that we are poised now to move into this new era 
where, indeed, we can generate the kinds of models that will be 
meaningful to dam providers, to agricultural, to city planners, 
et cetera, in exactly the kind of issue you're talking about 
with detail and with probabilistic distributions that you can 
actually make decisions on the basis of, and I think that's the 
exciting new scientific era that's dawning right now and is 
going to be driven by human capital, by interdisciplinary 
expertise, by computational and by a focus on the regional 
aspects of global climate change which then brings in this 
interface between science and the stakeholder community.
    So we're on the verge, I think within a decade, of being 
able to do the kinds of things that you're talking about.
    Senator Udall. The time-frame you're talking about is a 
decade for these next generation predictive models to be able 
to be----
    Dr. Killeen. Yes, sir.
    Senator Udall.--more reliable in terms of regional effects?
    Dr. Killeen. You're seeing the infant, the first blush 
capabilities that have some capability and are clearly 
consistent with the global perspective, but the next level is 
going to be more detailed and much higher fidelity.
    Senator Udall. Thank you.
    Mr. Dilweg. Senator, if I could follow up, as the insurers 
look at it, they are about 10 years away. I think the issue for 
them is they have these 50-year, 100-year looks and what 
insurers look for is more of a 25-year mortgage, 30-year 
mortgage to really shrink it down and identify it.
    When you look at the wildfire modeling in California, 
that's almost there. That's probably going to translate on 
where you put your brush, where you put plants next to a home, 
things like that, but it is what you're seeing.
    I mean, the concern is if you get a drought like what China 
is seeing, in your state, I mean that's catastrophic, and what 
we see in our region, it's not only the coastal areas, but 
it's--you know, in Wisconsin and Iowa, we've had the most 
rainfall in over, you know, 500-year floodplains. So it's these 
extreme swings that the insurers are trying to get a handle on 
and record tornadoes last year.
    So I think I would agree on the commercial side that we're 
looking at about 10 years from now.
    Senator Udall. Thank you.
    The Chairman. Thank you very much. Senator Warner.

                STATEMENT OF HON. MARK WARNER, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Warner. Thank you, Mr. Chairman, and I'm still 
trying to master how you're in three places at one time, and I 
apologize if some of my questions may have been asked, but I'm 
particularly interested in following up with Mr. Alix.
    I have a state like the Chairman's and I understand Senator 
Thune asked some questions on this subject, as well. I'm very, 
very interested in the possibilities around sequestration 
technology and, Mr. Alix, interested in what you're doing with 
Powerspan.
    I would note that, like the Chairman, our states are very 
similar in terms of coal-producing and I would add very quickly 
that Virginia Tech has some of the most advanced sequestration 
research going on and it might be a place that you might want 
to visit, as well.
    I am interested in your technology. If you have looked and 
costed out how much it would cost to put in your technology and 
can it be put into an existing pulverized coal plant and if you 
were to put in the technology, what type of output reductions 
would you see? I understand we clearly would get cleaner 
emissions, but what is not only the front-end price but what is 
the ongoing price in terms of decreased production?
    Mr. Alix. Well, as you point out, there's a difference 
between a new coal plant and a retrofit. We have looked at 
several retrofits and when we've looked at retrofits, we're 
typically looking at something on the order of baseload 500-600 
megawatts, relatively new maybe mid-1980s on. So it has useful 
life remaining to amortize the investment, and we see costs of 
roughly $30 to $35 a ton for CO<INF>2</INF> capture and 
compression.
    Typically, one would add another $5 to $10 per ton 
CO<INF>2</INF> for sequestration, unless it was sold for 
enhanced oil recovery, at which point you would have a decrease 
in that cost. So we think it can be installed and retrofitted. 
We think the costs would add on the order of maybe three to 
four cents a kilowatt hour in a retrofit situation, so it's not 
insignificant by any means.
    In terms of the question--I'm sorry.
    Senator Warner. In terms of the retrofit and in terms of 
the new build, you know, whole in versus electrical production 
out with the technology, what decreased amount of--in fact, 
productivity, electrical productivity are we--what is the 
second half of the cost in terms of productivity?
    Mr. Alix. Well, these numbers take into account that cost, 
of course, but for a new plant, we see 15 to 20 percent 
reduction in net output and for a retrofit, it would be more 
like 20 to 25. Again, there would be efficiency-related losses 
and the cost of adapting it to a retrofit would be greater than 
a new plant.
    Senator Warner. Which is always less efficient. So it's 
quite significant, the reduction in net output for adding CCS, 
and I understand that Senator Thune asked a couple questions.
    I was looking at it in terms of what can we do to speed 
development of this technology, Number 1, yours and other 
competitors, and I understand that the answers revolved around 
EPA standards and then dealing with some other liabilities.
    Can you talk a little bit about some of the liability 
issues?
    Mr. Alix. Well, you know, I'm not extremely well versed on 
the liability issues because they're principally involved with 
putting CO<INF>2</INF> underground and maintaining it in place 
and not having any leaking or even sometimes earthquake 
potential if you put it near a fault. So there are people who 
are more well versed in that.
    But in terms of how we get technology moving, soon because 
I think there's consensus we need to. There have been 
incentives proposed, both in the House and Senate as part of 
most climate packages, things like bonus allowances, that get 
CCS moving ahead of a CO<INF>2</INF> price that would pay for 
it, and we're a big advocate of that because we think that type 
of regime is needed to get 10 to 20 commercial scale units 
deployed in the U.S. and show that this is a viable response 
for mitigation to keep our coal plants running and to keep that 
low-cost electricity source viable.
    Senator Warner. The Administration--there has been a lot of 
controversy in the last few days about some of the numbers that 
might have been slightly cooked on the Future Gen project in 
Illinois and, you know, I'd like you to comment generally about 
the approach we're taking which seems to be still putting a lot 
of the eggs in that single beta site example rather than trying 
to support a series of beta sites around the country. Any 
comments anybody else on the panel wants to comment on the 
approach being taken?
    Mr. Alix. Well, clearly, there need to be a lot of 
different solutions, but the problem is existing coal plants in 
the U.S. and China which are pulverized coal plants. So I think 
that is the pressing need, both in the short term and the long 
term, clearly because these plants have oftentimes 50- or 60-
year lives.
    Beyond that, a new generation of technologies, such as 
Oxyfuel or gasification with CO<INF>2</INF> capture, is also 
promising for the decades beyond now and so at least one 
demonstration or two of each of those is critical for us to 
understand what the real costs are. So how one juggles those 
priorities, you know, I think is up to you all, but I would say 
that type of demonstration is important as is Oxyfuel, as is 
many of the post-combustion technologies of which we are only 
one.
    But the big problem clearly is existing pulverized coal 
plants, both in the U.S., China, India, Europe, and Australia. 
That's where the emissions are and they're not going away any 
time soon.
    Senator Warner. Well, before I ask the panel if they want 
to comment, I know my time has expired, but I would simply add, 
putting the parochial hat on again, that we're about to build a 
next-generation plan in Southwest Virginia that has got, in 
effect, the land and the ability to do a sequestration 
demonstration project that I would strongly urge--and I for one 
think in the area of Appalachia that basically developed coal, 
that powered our economy in the th 20th Century, sure would be 
great if we had a couple of demonstration projects on how we're 
to be able to use coal in the 21st Century actually taking 
place back in our home region.
    So I would urge you to consider that and again I know my 
time expired, but if anybody else wants to add a comment in 
terms of the approach the Administration is taking on this.
    The Chairman. It's more than expired, Senator.
    Senator Warner. On that note, thank you, Mr. Chairman.
    [Laughter.]
    The Chairman. Thank you, Senator Warner. Senator Cantwell.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
this important hearing.
    I'd like to ask Ms. Jacobs and Dr. Killeen about adaptation 
in general. Washington State and Seattle and King County, all 
three entities have done regional climate analysis for 
adaptation. So I think they're really kind of leaders in the 
country in doing that, and we really don't have the large-scale 
models.
    Part of the issue of doing climate adaptation is that the 
models and data for the large-scale are so important to then 
give to the local entities so that they can make regional plans 
from them. We did pass an adaptation bill out of this committee 
and unlikely to reintroduce it again this year because I think 
it's important that we have the impetus and Federal agencies 
are doing their part in planning, particularly when it comes to 
incorporating climate models and infrastructure and 
decisionmaking.
    My question is what models are needed for the local 
governments and regional governments to appropriately plan, and 
why aren't we doing that right now? What do you think is 
standing in the way of why we're not--why we haven't achieved 
that goal yet on adaptation?
    Ms. Jacobs. I'll start and then I'll pass it on. It isn't 
only because we don't have the models that local people are 
relatively frustrated. I mean, it's partly because it's very 
difficult to know how much uncertainty there really is and I 
think that if you explain clearly to people that, you know, 
it's true, we don't know exactly how much a plant's going to 
warm, we don't know how much sea level is going to rise, and we 
don't know exactly what's going to happen in the climate 
system, however, we know it will be warmer, we know that sea 
level will be higher, and we expect longer droughts and more 
extreme events.
    Well, if you say that, then you know you need to, you know, 
really beef up your infrastructure, you need to be concerned 
about reservoir capacity, et cetera. There are a number of 
really distinct and sort of obvious responses to the higher 
temperature, the more extremes, et cetera. So a lot of people 
are getting wound up about not having the down-scaled 
information available to them and they really want it, and I 
understand that.
    My research group is working on a down-scaling project 
right now, but I also am concerned that people want definitive 
answers and those definitive answers are not going to be 
available fast enough to suit them.
    Senator Cantwell. But shouldn't we have Federal agencies 
require taking into consideration these factors into their 
decisionmaking?
    Ms. Jacobs. Sure. Absolutely.
    Senator Cantwell. We've added Washington State to 100-year 
floods back to back. So people are saying hmm. They're not 
really 100-year floods if they're back to back.
    Ms. Jacobs. Yes. There's--absolutely. We need to be paying 
far more attention to adaptation and I don't mean by the fact 
that we don't need to have perfect information that we 
shouldn't be making decisions and we shouldn't be concerned.
    We need to be concerned and we need to make decisions and 
we need the Federal agencies to be helping with that, both with 
producing the science and with doing those adaptation things 
themselves.
    Senator Cantwell. And putting that in the statute would 
help.
    Ms. Jacobs. Yes.
    Dr. Killeen. May I add to your question on the model----
    Senator Cantwell. Yes.
    Dr. Killeen.--state of readiness? The models of the 1970s 
could barely have a stable planet to do any climate analyses. 
By the 1980s, you had the atmosphere and the oceans circulating 
and interacting. In the 1990s, you added things like carbon, et 
cetera.
    The state-of-the-art model today has many of these 
interacting components but as a resolution element, there's a 
grid point like every 50 kilometers. So what you're looking for 
is not resolved in the current state-of-the-art models.
    The next generation state-of-the-art model opens that door. 
You suddenly are able to look at one to two kilometer 
resolution. You can resolve large estuaries. You can resolve 
specifics about regional issues and those models will be 
running on super computers and they will have the methane and 
the ice shelves and all the missing ingredients that we've been 
talking about in this hearing and they will also have a family 
of adjacent models that are called, ``integrated assessment 
models,'' that will be stakeholder-tuned to exactly do what 
you're referring to.
    So we're on this threshold of really being able to do the 
kinds of integrated assessments and then interact with statutes 
and policymakers in the next few years.
    Senator Cantwell. And that information probably would be 
better than just saying it's a 100-year flood, correct? I mean, 
it will be based on more science, more data, more information 
than just looking at one piece of the puzzle which is history 
on climate?
    Dr. Killeen. Yes, that information--we won't just be 
redoing the tables of the 100-year floods but you'll be getting 
probabilistic distributions of likely outcomes by parameter, by 
region, by economic sector, and this is going to be of 
incredible use to the way society is managed.
    Senator Cantwell. I know my time is up, Mr. Chairman, but 
I'd like to submit a question to the panel about what research 
level we need on ocean acidification because that's another 
model that we need right away. Our shellfish industry is having 
unbelievable problems on feeding this year just because of the 
climate change. They need information. They need an 
understanding of what's happening, and I think people--the 
oceans are just at a much more rapid impact on the 
CO<INF>2</INF> than I think people realize.
    I know the Chairman understands this issue. So I thank him 
for his patience and indulgence on it.
    The Chairman. Thank you, Senator Cantwell. I'm going to 
make an effort here to have a second round and I want to pick 
on you three.
    Commissioner Dilweg, you talked about last century and what 
you had to do with wooden houses having fire engines every five 
blocks. That's what the insurance industry said had to be done 
and it happened. So now you've got a new situation and so, in 
effect, I'm just drawn to ask you what kind of new kinds of 
insurance policies are you seeing or do you foresee being 
issued, promulgated or whatever to deal with our current 
situation?
    Mr. Dilweg. I think the issue that we run into as 
regulators is, as the companies are innovative in their 
products, are they pricing it correctly? Are they taking into 
account climate change and then are they charging too much or 
not charging enough?
    We don't right now have the tools to kind of check the 
industry on that, but I think some of the industry innovations 
surrounding miles traveled in an automobile, getting a discount 
for miles traveled, getting a discount for a hybrid, giving 
incentives, you have companies that are giving incentives to 
have leads-built and green-built as you rebuild Galveston or 
Katrina, so those types of things are occurring and you're 
getting consumers willing to pay a little bit more and so the 
area that I see most recently the interaction of the insurance 
industry in two areas drove how we viewed the Y2K problem.
    We started asking questions, and this is really the 
question, can the insurance industry drive the paper company or 
the coal plant to change, and in the Y2K situation it was the 
insurance industry and the SEC, for example, saying, all right, 
this is going to happen, what are you doing? Is your system 
going to shut down? Am I going to have to be paying business 
interruption insurance?
    You know, Y2K was a very specific example where they chimed 
in, and then you look at safety in automobiles that has been a 
long-term process of--I mean, when I was a kid in the 1970s you 
didn't wear a seatbelt. I mean, you know, the windows went up 
on your head. You know, the automobile was a pretty scary place 
for a kid. Now, you're locked in a five-point harness. You've 
got air bags. You've got everything running at you.
    The Chairman. I've got to cut you off and let the other two 
in.
    Dr. Jacobs, can you give me an example of how you take 
science and then make decisions from it?
    Ms. Jacobs. Well, that's a great question. I'll give you an 
example from my own research.
    I've been working on the Colorado River and helping the 
Bureau of Reclamation with the decisions they make to operate 
the dams on the river system and helping them to incorporate 
both current ocean temperature information that has predictive 
capacity and think about the future in terms of the very long 
term what does climate change mean to the operations of the 
Colorado River and to the stakeholders that are dependent on 
it. So that's one example.
    But the Arizona Water Institute that I have been running 
for the last 3 years exists entirely to connect the university 
system to the people who make decisions. So it's about 
mobilizing that information for people to use and so we focus 
on the stakeholders in the State of Arizona, answering water 
quality questions, salinity, energy and water, those kinds of 
issues.
    The Chairman. Thank you. Mr. Alix, we had this thing called 
Lieberman-Warner, last year. It was a big environmental 
amendment and it said that by the year 2050, carbon dioxide had 
to be down to 30 percent, and in you walk and start talking 
about 10 percent and, I mean, this is stunning because I think 
if you went to 100 percent, it's totally cost ineffective. 
That's the question I'd like to ask you but don't have time to 
ask you.
    If you could go to 10 percent or 8 percent or whatever it 
is and you suggested actually 9 percent, why aren't others 
interested? Why are some of the largest energy companies that 
do this, why are they sort of taking off on their own track 
which is much less effective?
    Mr. Alix. Well, I think, first, my comment was coal-fired 
power plant emissions could be reduced from about 36 percent to 
four to five.
    The Chairman. Four to five?
    Mr. Alix. Four to five.
    The Chairman. Good. That's good, because that's what Dr. 
Holdren said.
    Mr. Alix. That's great. I'm in good company then. Certainly 
transportation could be reduced, and then you look at homes and 
other uses and industries.
    Overall, you know, the overall goal, I do think, you know, 
80 percent reduction that the President has recently proposed 
is achievable by 2050 from my view. Why others are not quick to 
grasp it, it's difficult and it's costly and there's risk.
    These are very large capital investments, you know, for 
carbon capture and storage on a baseload power plant, $500 
million or more. It's going to increase the cost to ratepayers 
two-three-four cents a kilowatt hour which for industries that 
depend on low-cost electricity in West Virginia and other 
places is a very significant hit.
    The Chairman. The government could help pay.
    Mr. Alix. I think if the government subsidizes early units, 
which is part of the bonus allowance structure in Lieberman-
Warner and Dingell-Boucher, I think it's a huge, huge reason 
for the coal industry to embrace it, and I think you're seeing 
certain folks in U.S. CAP and other places saying, you know, if 
the trade-off is the government pays for some of these early 
installations to show the technology's commercial and not 
disadvantage our low-cost plants, then we can get onboard.
    The Chairman. Well, let the world take note of you, and now 
I'm going to infuriate the Governor, former Governor of 
Virginia if I continue, so I have to stop and ask Senator 
Hutchison.
    Senator Hutchison. I just want to ask one question again of 
Dr. Killeen, if you know.
    I have seen hurricane-tracking since, basically 1900s, 
maybe even a little before, but with the levels attached to it. 
So we have seen really an ebb and flow. It hasn't been just a 
continuation of a build-up through the years, but what I 
haven't seen, and I wonder if you have any knowledge of this or 
if there is tracking, is what seems to me to be a relatively 
new phenomenon which is the surges.
    Katrina didn't hit New Orleans. It was the surge that 
really did the damage to New Orleans and Ike, the surge was 
something we have never seen. How hard but also how far in the 
coast it came. I grew up in Galveston County, so I'm speaking 
anecdotally, but I can't remember, after the sea wall was 
built, which is 12 or 13 feet, I don't remember that it was 
ever breached, but it was as if you could go and jump in a 
swimming pool when I was down there right after Ike. It was 
right there.
    My question is do we have a record of that, and do you see 
a pattern there on the surge as opposed to the intensity of the 
wind?
    Dr. Killeen. This is a very active and, I would say, not 
controversial but dynamic scientific discussion on how 
hurricanes have changed over time, and there's now literature 
on the relationship of the track, the intensity, and the storm 
surge consequences of hurricanes, and there's a group of 
scientists who are publishing results that look--that suggest 
that intensities of hurricanes have increased, not numbers of 
hurricanes because they're limited by the number of easterly 
waves that come off Africa.
    So you have kind of a total number that we could never 
predict but the intensities of hurricanes and, of course, that 
relates directly to storm surge. So the pressure in the middle 
of the hurricane is what, when it hits landfall, is going to be 
the principal driving factor behind the storm surge. Also 
angles and things like that. But that's an active area of 
inquiry.
    I would say where we have seen real progress is on 
hurricane track estimation. We're getting better predictions of 
where hurricanes are going to go further upstream than before. 
We're getting--we're making some inroads on intensity, as well, 
although that's a much tougher problem because you have to deal 
with wind shear in the atmosphere and other things, but if you 
fly aircraft in, you drop sounds, they're actually improving, 
too.
    So we're getting better, and I would say that there's--the 
jury's out on exactly the relationship of hurricane prevalence 
and climate change, although there's a body of work that 
suggests that almost the intuitive thing is happening which 
means that you have more evaporation, you have greater energy 
in the system, and the hurricanes are going to be stronger. So 
there is evidence that has been published and there are people 
who argue against that, also.
    Senator Hutchison. Well, I have seen the tracking be so 
much more accurate in the last few years. They have predicted 
exactly where these go and, of course, it helps in saving 
people's lives, but then the surge was not expected to do the 
damage that it did and did not really give the notice in 
Katrina and really they were not prepared for it in Galveston 
either and along the Gulf Coast for Ike.
    As we are working toward the legislation that I'm hoping to 
introduce, I really want to make sure that I put everything in 
that we ought to be focusing on and I would look forward to 
having your help.
    Dr. Killeen. I would be delighted to.
    Senator Hutchison. All right. Well, thank you very much, 
Mr. Chairman, for the second round. Thank you.
    The Chairman. Thank you very much. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. I'll try to be a 
little more observant of my time.
    The Chairman. No, don't, because I've got a question after 
you.
    Senator Warner. I think you raised a very valid point with 
Mr. Alix, which is if we're on the cusp of an influction point, 
why don't the traditional incumbent industries get it? And 
making one analogy from an industry I'm a little more familiar 
with and that was the wireless industry, the cell phone 
industry, you know, I was in that for a long time, co-founder 
of Nextel and I will always remember back in the mid-1980s, 
cell phones were just starting to develop, every bit of smart 
money, all of Wall Street and all of the telephone companies 
all had a common consensus. It would take 30 to 35 years to 
build out a wireless network in America and at the end of that 
30 to 35 years, 3 percent of Americans would have cell phones.
    Well, they totally got it wrong because we hit an 
influction point, I think around energy and with the push of 
climate change, if we do it right, we are close to hitting that 
influction point, and my question, probably directly to Mr. 
Dilweg, but again with the 3:48 I've got, anybody who wants to 
add on, is are there things, other than government incentives, 
and are there things, for example, that the insurance industry 
could do to accelerate this?
    For example, I believe that until very recently people have 
become concerned about climate change, the American consumer 
has been basically told two options, you know, turn out the 
lights or go buy a Prius, and not much in between, and in the 
last year or so, we're starting to see movement with the 
development and perhaps more acceptance of EnergyStar and we've 
seen specific industries meet certifications.
    But I tend to believe that we're still lacking across 
industry consumer branding Good Housekeeping seal of approval 
that might be EnergyStar on steroids so that consumers in all 
of their daily purchases have a trusted and more 
environmentally-sensitive climate change-sensitive purchase 
option versus a traditional which might again help us move in 
how consumers making better choices about how they get their 
power generation.
    I guess I'd just be interested in seeing any comments from 
any of the panel beyond simply what we can do with governmental 
incentives, what we can do to move consumer choices, and are 
there things the insurance industry can do to help?
    Mr. Dilweg. I think in the insurance industry, the main 
participants in this have been the reinsurers because when a 
primary insurer, you know, like a Liberty Mutual, blows through 
its limits, it's the reinsurer that picks it up. It's the 
reinsurers that are more adventuresome in Europe. They have to 
actually cover flood in Europe. Here, flood is covered by the 
Federal Government. So, you know, it's that--that's where I've 
seen the most, the embracing of climate change because they're 
on the hook financially.
    As far as the kind of branding and getting into the 
products, that's slowly evolving. The ties are there. The 
consumers are starting to drive it. Some companies are doing it 
just to get the consumer approval, but it's not a cross 
industry type of thing at this point.
    Senator Warner. Dr. Killeen?
    Dr. Killeen. Senator Warner, I'm not an expert on consumer 
preferences or anything like that, but I think part of the 
debate about climate science has been because the signal of 
humankind-induced changes has been masked to some extent by 
natural variability. That's now changed.
    The signal for human-induced change has come out of the 
woodwork, if you like. Ten years from now, it'll be really out 
of the woodwork and so that's going to affect people's 
perceptions in substantial ways. So my daughter's generation 
and my daughter wants to occupy one of these seats, 
incidentally, but is already very passionate about it. The next 
one after that is going to be even more aware and so forth. So 
there will be the public attention is going to be really 
riveted by this story as it unfolds.
    Senator Warner. Well, I agree with that, and I think that 
there has been, while well-intentioned things like EnergyStar 
and lead certification, but the thinking has not been broad 
enough, expansive enough, and in many ways our challenges would 
be easier if we could really engage the American consumers in 
this debate in a bigger way.
    Thank you, Mr. Chairman.
    The Chairman. And in a more creative way. We obviously have 
to be so much more aggressive in putting----
    Senator Warner. Aggressive and more creative. We need 
something to make this user-friendly. Again, my daughters are 
in the same circumstance. They may not want to sit here but 
they want to be part of the solution set and we don't--every 
consumer choice this decision--this can be built in and there 
has not been a cross-brand, you know, really professionally-
driven non-governmental approach to this and I think it's a 
wonderful opportunity.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Warner. Two questions.
    First is, Dr. Killeen, my understanding is that we talked 
earlier about permafrost, Siberia, Alaska, other places, under 
permafrost, and I don't know how much is there of it, is 
methane. Methane, I'm told, is about 30 to 35 times worse than 
carbon dioxide.
    So my question to you is, just give me an answer on it, 
please, if you take all the permafrost in this world, how much 
of it is underlain by methane?
    Dr. Killeen. If you took all the permafrost in the world, 
there would be so much methane that we would be an 
unrecognizable planet. There is huge quantities of methane in 
the deep permafrost.
    The Chairman. Huge. Is any escaping at this point?
    Dr. Killeen. There are measurements--I'm talking about the 
new surface permafrost. It's important to--there's a deep 
reservoir and there is new surface reservoir.
    The deep reservoir is huge. The new surface reservoir is 
more modest, but it's clearly dynamically changing. There are--
we can see in the ocean bubbles of methane coming out of 
methane hydrate formations in the Arctic Ocean, for example. We 
can see the decomposition of new surface permafrost in places 
like Alaska where, you know, buildings can slip because of 
the--so there's evidence that's some of the new surface 
permafrost is degrading and there are bore hole observations, 
as well, that show a change in the temperature distribution of 
the new surface permafrost in Alaska that have now 
systematically been done for 10-15 years and that show that the 
thermal balance is changing in that permafrost.
    But this is a joker in the pack of our understanding of 
climate change because the IPCC models didn't have methane in 
there. The next round of models will have methane in them with 
some assumptions about sources in flux, et cetera, and----
    The Chairman. Thank you.
    Dr. Killeen. Thank you.
    The Chairman. Mr. Alix, I was talking with the Chairman of 
Cisco about you and your project and he said that when he 
plants a tree, what he likes to do is put out about six seeds, 
assuming that through the process of development, one will work 
and the others won't.
    Now, I go right back to why aren't more people latching on 
to what you're doing. I mean, this is a closed community. 
Everybody knows everything about what everybody else is doing. 
But the variety of solutions is just staggering in their 
effectiveness. You're talking 5 percent. That's right dead 
center on nuclear, which is considered clean, and I don't 
understand.
    I've already asked you the question, but I want you to talk 
more about it. Why aren't people doing more of what you're 
doing or are there other iterations of what you're doing that 
people could be doing? Are you restricted or are others 
restricted because they're not working in the territory that 
you're working in?
    Mr. Alix. Well, I think there is an overall constraint 
which I mentioned earlier which is purely financial, which is 
it's a massive investment in capital and operating costs. As 
Mr. Warner mentioned, it's a 15 to 25 percent reduction in 
electrical output. So this is a bill for an average plant of 
$20 to $50 million a year per power plant.
    The Chairman. We're talking huge companies, Mr. Alix, huge 
companies.
    Mr. Alix. Well, I think you'd have to ask those CEOs. My 
belief is they will not--there's only one CEO I know in this 
United States that's prepared with his shareholders and owners 
to spend money in advance of government incentives and a 
requirement and that's Ron Harper in Basin Electric and I think 
they're a shining example and the reason they're doing it is 
because they get 96 percent of their electricity from coal and 
their average price to their consumers is around five cents a 
kilowatt hour and they're worried under climate legislation 
that goes away. So he's stepping out. He's spending his 
members' money, about $250-300 million, to prove this 
technology.
    I have not seen one other CEO in the United States who's 
willing to make that investment without government backing.
    The Chairman. All right. So then that's their attitude. So 
you say fine, then we'll tax carbon.
    Mr. Alix. I think certainly if you put a limit on 
CO<INF>2</INF> and you put a price on it, that's the beginning 
of a lot of action and I would support such actions.
    The Chairman. So you think then the incentives become a 
little less necessary and the action becomes a little more 
active?
    Mr. Alix. Yes. I think so.
    The Chairman. OK. I like that. Thank you all extremely 
much. You've been a terrific panel. I have to say one official 
thing here: we're going to keep the th record open for 
Committee members till March 20 of this year, Friday, for any 
additional questions or statements. I would like to thank each 
one of you.
    This is such a huge subject and what's fascinating, and 
unfortunate in some ways, is that we have at least four 
committees who feel that they can do it and the question is, 
how we are going to meld this together. I think the answer is 
what's happening in the world, even with gaps in knowledge, is 
going to drive us to do it and with that, this hearing is 
adjourned.
    [Whereupon, at 12:15 p.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. Kay Bailey Hutchison to 

                            Dr. Tim Killeen
    Question 1. The National Research Council in 2003 recommended the 
establishment of a coordinated Federal program of weather modification 
research designed to reduce scientific uncertainties. The program 
should consist of a sustained research effort that uses a balanced 
approach of modeling, laboratory studies, and field measurements. 
Instead of focusing on near-term operational applications of weather 
modification, the NRC Stated the program should address fundamental 
research questions. Do you agree with the NRC's recommendation? Do you 
believe the Federal Government has made any progress on this?
    Answer. The NRC report recommended fundamental studies in areas of 
cloud and precipitation processes, and cloud dynamics. The NSF agrees 
that these are important areas of research and efforts are supported on 
these topics including field research, laboratory studies, theoretical 
and numerical modeling studies. In NSF's view focusing on the 
fundamental properties of precipitation production and cloud dynamics 
is the correct approach. Scientists have developed credible 
modification hypotheses for some, although not all, weather systems. 
Before we can fully test these hypotheses, we need to better understand 
the potential evolution paths that natural systems could follow to be 
able to identify when changes to the natural system have been effected.
    It should be noted that field research that directly involves cloud 
seeding of any sort engenders many legal and social issues. Therefore, 
while much of NSF supported research directly contributes to the 
knowledge based needed to advance the science of weather modification, 
actual field research involving seeding agents is not currently 
supported by NSF. NSF, however, does consider proposals that involve 
laboratory experiments or numerical simulations of seeding.
    The Federal Agencies have a long history of cooperation across the 
broad spectrum of climate and weather research and there has been 
progress in understanding precipitation processes, precipitation 
systems and severe weather. Recent examples of multi agency programs 
include the North American Monsoon Experiment (http://www.eol.ucar.edu/
projects/name/), The International Water Vapor Project (http://
www.eol.ucar.edu/dir_off/projects/2002/IHOP.html), and the Hurricane 
Rainband and Intensity Experiment (http://orca.rsmas.miami.edu/rainex/
).

    Question 2. You identified several inadequacies in your written 
testimony concerning the U.S. science program's modeling and observing 
capabilities. Does the Federal Government have a firm plan to address 
these inadequacies? Would the funding provided in the economic stimulus 
legislation be used to address these concerns?
    Answer. We will address the question about modeling first. The 
straightforward answer is that the Federal agencies, including several 
interagency groups dealing with climate models of different types, have 
recognized the importance of improving current modeling capabilities. 
Some problems stem from constrained computational resources; some from 
inadequate understanding of fundamental processes and/or the capability 
to couple the relevant components of the earth system into a single 
model. Global climate change models are one component, albeit a very 
substantial one, of a knowledge system of the global integrated Earth 
system that includes sustained high accuracy, well-calibrated global 
observations with high-spatial- and high-temporal-resolution and 
process experiments.
    There are many excellent global climate change models in the world, 
including three from the United States. The Community Climate System 
Model (CCSM), a cooperative effort between NSF and DOE is one. The 
others were developed at the NOAA Geophysical Fluid Dynamics Laboratory 
(GFDL) and the NASA Goddard Institute for Space Studies (GISS). All 
three global climate change models were incorporated in the IPCC 
Climate Change 2007 Assessment Report. The NSF/DOE model, CCSM, is a 
``community model'', developed collaboratively by the scientific 
community and openly available as a research and development tool while 
the GISS and GFDL models are internally developed and available upon 
request.
    All global climate models have shown recent tremendous progress in 
their ability to reliably and accurately simulate large-scale features 
of Earth's climate system in its rich complexity. Two examples are the 
accurate representation of El Nino cycles and the incorporation of the 
global carbon cycle.
    Current limitations on global climate models are spatial 
resolution, that is, the smallest scale phenomenon they can represent, 
and complexity, where processes are left out for lack of knowledge or 
for computational expediency. Global climate models are striving to 
achieve the same level of success at geographical scales equivalent to 
the size of Illinois as they do for large-scale phenomena like El Nino. 
An example of a resolution constraint is the fact that global models 
cannot presently resolve hurricanes in more than a schematic way. As 
for complexity, current models drastically simplify the behavior of 
many critical phenomena--ice shelf dynamics, land-surface interactions, 
role of mega-cities, ecosystem dynamics and evolution, social and 
economics processes.
    Addressing these issues requires a committed and coordinated effort 
across the agencies to: (1) develop a cadre of computational 
geoscientists, that is, people trained in computationally intense 
modeling as well as the sciences relevant to climate, (2) engage a 
broader community of interdisciplinary scientists who would use and 
critically evaluate regional climate model results, and (3) prioritize 
investments to ensure adequate infrastructure, including hardware and 
software system frameworks, software engineers, and the computational 
resources necessary to run comprehensive models at the resolutions that 
are relevant to society and to allow for multiple (ensemble) model runs 
in order to assess the uncertainty in model results.
    The importance of having an observational system capable of 
monitoring climate change as well as providing the detailed climate 
information required to test the ability of models to capture critical 
climate processes cannot be understated. The intergovernmental GEO 
activities serve as a worldwide framework to define the kind of 
international system of observing systems that are required. The 
complexity of the global integrated Earth system is vast and requires 
international coordination. NASA and NSF play somewhat unique roles 
relative to many operational agencies in that NASA and NSF are not 
responsible for climate monitoring per se; rather, NASA and NSF 
observing systems complement and supplement the operational observing 
systems. They are designed to unearth new insights into key physical 
and/or biological processes and can serve as test beds for state-of-
the-art sensors or sensor network configurations. Further, all of the 
Federal agencies recognize the importance of ensuring access to data 
and the tools for exploiting such data Accelerating successful 
research-to-operations transitions of new measurement capabilities will 
help to improve understanding of global and regional climate change and 
to provide critically important information for adaptation to climate 
change.
    NSF cannot speak for other agencies regarding funding they received 
under the American Recovery and Reinvestment Act. NSF's Recovery funds 
will allow us to support a number of important climate modeling and 
observational activities this year. Given the high priority that NSF 
accords such modeling and observational activities, we are committed to 
ensuring sustained support of these and other new capabilities into the 
future.

    Question 3. You mentioned in your written testimony that, ``The 
relationship between the Earth's ability to function as a set of 
interconnected ecosystems and the biodiversity within and among those 
interacting systems is an area of incomplete knowledge and critical 
importance.'' Given that, do you feel we are in a position to begin to 
finalize adaptation plans in response to the impacts of climate change?
    Answer. Adaptation planning requires that managers and policy-
makers account for the potential and likely outcomes of climate change. 
In the adaptive management framework, implementation cannot be 
considered ``final.'' Decisions will need to be made based upon best 
available data and with knowledge of uncertainty about future climate 
change. Adaptation plans will need to be periodically evaluated and 
adjusted in light of new scientific findings and changing conditions. 
NSF sees opportunities to begin developing smart adaptation strategies 
through efforts that will combine natural science and social science. 
The process of developing and evaluating adaptation (and mitigation) 
strategies must be evolutionary, and strategies modified as new 
insights are gained. Ecosystem services and biodiversity are two areas 
where great scientific questions remain.
    Given the significant uncertainties in how the natural, biological 
systems interact with the physical system, one major set of questions 
concerns how the living world adapts to and transforms Earth's climate. 
Current models of biotic change in response to climate change indicate 
that a large fraction of Earth's biota will need to genetically adapt, 
migrate, or suffer extinction. Estimates of the fraction of species so 
affected vary. For example, Thomas et al. (Nature, 2004) used severak 
different climate change scenarios to estimate a range of 15-37 percent 
of species committed to extinction. One recent study suggested that 50 
percent or more of lowland tropical species could decline in abundance 
or go extinct due to climate change (Colwell et al., Science, 2008). We 
know enough to expect large changes but we do not yet know enough to 
provide managers with specific guidance about alternative management 
scenarios.
    At the same time, a large fraction of Earth's biodiversity is still 
undescribed. Perhaps 10 percent of species on Earth are named (May and 
Beverton, Philosophical Transactions: Biological Sciences, 1990). 
Classical approaches to biodiversity discovery are too slow to make 
rapid progress given the impending climate-related biotic responses. 
Major developments in genomic technology put within reach the 
possibility of determining the unknown dimensions of biodiversity 
within a decade.
    Next generation climate models necessary to evaluate critical 
adaptation strategies will need better information about biological 
mechanisms involved in carbon, water and nutrient cycles and need to 
more tightly integrate across biophysical and social science 
disciplines. We can anticipate these next generation models will be 
important tools to policymakers just as current generation models have 
played such a large role in the IPCC.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Dr. Tim Killeen
    Question 1. NSF is considering as part of its Major Research 
Equipment and Facilities Construction (MREFC) an ocean observing system 
part of which is a regional cabled observatory with immense power and 
bandwidth. This is a unique capability with which to observe 
biological, fishery changes as well as water movements. As climate 
change shows up in the fisheries altering patterns of fish migration, 
how does NSF intend to ensure that the Ocean Observing Initiative is 
making good measurements of migrating species? What are their plans to 
ensure the network is of significant scale to monitor these changes on 
the west coast in conjunction with Canada which has already installed a 
smaller cabled network?
    Answer. The mission of fisheries resource management belongs to 
NOAA, but many of the data and research results supported by NSF are 
useful to NOAA scientists in carrying out that mission. In the case of 
NSF's planned Ocean Observatories Initiative (OOI), sensors are 
included that measure the state of, and changes in, the ocean's general 
conditions and health (for example, temperature, pH, light penetration, 
dissolved oxygen content, turbidity, nutrient levels) as well as 
sensors that examine the base of the food web (for example, 
chlorophyll-derived productivity estimates of phytoplankton). These 
measurements provide the foundation for understanding impacts on 
migrating fisheries species. For NSF, using data from the OOI and its 
Canadian counterpart to understand the larval, juvenile and adult 
lifecycles of fishery species, and other marine animals is a high 
priority for scientists posing fundamental research questions. This 
information will inform our knowledge of the dynamics of fish 
populations and the behavior (e.g., migration) of target species in the 
NE Pacific and the Mid-Atlantic regions, as researchers propose to use 
the infrastructure of OOI for deploying advanced technology to observe 
population and behavioral studies of targeted species.

    Question 2. How is NSF working with NOAA to ensure that the 
regional cabled observatory and the coastal moorings off the Washington 
and Oregon coast can provide information that is useful for storm 
forecasting, and how is NSF working with USGS to ensure that the 
regional cabled observatory off Washington and Oregon are providing 
seismic information useful for earthquake, tsunami and hazard modeling?
    Answer. NOAA chairs (and NSF serves as Vice-Chair) an Interagency 
Working Group on Ocean Observations, which meets monthly to ensure 
informed planning of ocean observing assets across the agencies. More 
specifically, program staff from NSF and the IOOS Program Office at 
NOAA are working together to develop data management systems for the 
two systems that converge and will provide universal, free, and 
streamlined data access to all observing data (including surface waves, 
mean currents and turbulent velocities, water column pressure). Within 
the Geosciences Directorate, the Divisions of Earth Science and Ocean 
Sciences are working together to combine resources from EarthScope, OOI 
and core programs for studies of tectonic and seismic processes off the 
Pacific Northwest. Long-standing partnerships between the Division of 
Earth Sciences and the USGS on research and monitoring of global 
seismic activity will enhance this research.

    Question 3. Ocean acidification is a major concern to me, and I've 
worked with Senator Lautenberg to pass legislation to make sure our 
government conducts research on this important topic. I'm concerned, 
though, how often major climate reports, assessments and programs 
ignore or omit the topic of ocean acidification. If we create a Federal 
Climate Service, should that service also be responsible for ocean 
acidification? Shouldn't ocean acidification be given more attention in 
the climate conversation and forums like the International Panel on 
Climate Change and the major climate change study being conducted by 
the National Research Council?
    Answer. The research community is concerned that increasing ocean 
acidification will have a significant impact on ocean ecosystems and 
food webs, natural ocean carbon sequestration and broader ocean 
chemistry; based on science done within the last several years. In 
fact, beginning in 2007, NSF established dedicated new budget lines for 
ocean acidification research.
    A number of activities are ensuring that ocean acidification will 
be appropriately recognized in other arenas. The Ocean Studies Board 
has commenced a study on the ``Development of an Integrated Science 
Strategy for Ocean Acidification Monitoring, Research and Impacts 
Assessment,'' supported by NOAA, along with NSF and other agencies. The 
Omnibus Public Land Management Act of 2009, signed by President Obama 
on March 30, includes legislation on ocean acidification (FORAM). The 
legislation includes authorization levels for research at NSF and other 
agencies, and also for a coordinated inter-agency approach to 
coordinating research across the agencies, integrating research with 
adaptation and mitigation strategies, and providing information for 
policymakers.

    Question 4. Particularly in the field of renewable energy, new 
companies are emerging that want to provide climate data services for 
the private sector. For example, a company in my home state of 
Washington called 3TIER has set out to provide climate and weather data 
for wind, solar, and hydropower energy providers. In your opinion, 
where should the line be drawn between the climate services the Federal 
Government should provide and the services the private sector should be 
providing? As we move forward with more sophisticated government 
climate services in the future, what steps should we take to make sure 
we area not unnecessarily expanding into areas that are most 
appropriate for the private sector?
    Answer. There is a long standing and successful public--private 
partnership for weather and climate services. I expect that to continue 
and serve as a model for the future roles of the private and public 
sectors. The challenge lies in the new emphasis on climate rather than 
weather products and the fact that climate can no longer be treated as 
stationary. Robust predictions will depend on the results of intense 
modeling efforts and operational observations, the effort and expense 
of which will most likely continue to be borne by government agencies.
    Within the Nation there is significant demand for information about 
climate, but a lack of appreciation about the uncertainties in today's 
climate projections that will serve as the basis for developing region-
specific products. The public--private enterprise will be in ``new 
territory'' in the next decade as we learn to deal with a changing 
climate, but the basic public-private relationship is unlikely to 
change much. The government recognizes that it can provide information 
that is more immediately useful to users (including the private sector) 
as well as new decision support tools, but it will be the private 
sector that can best meet specific needs for the majority of end-users.
    Traditionally, the private sector has played an important role in 
providing both weather and climate services to the Nation. The private 
sector is well positioned to provide value-added climate products 
tailored to meet the specific needs of a range of customers. The need 
for ``tailored'' information comes about because the many different 
users of climate information have distinct and varying needs depending 
on the sector, the activities involved, the size of the operation, the 
time-frame for which information is relevant to the enterprise, etc. 
The private sector can serve as the ``translator'' of climate 
information--assessing users' needs and developing value-added products 
that meet those needs--and updating those products as new understanding 
about the climate system emerges.
    The public sector has traditionally maintained the observing 
systems and related data bases as well as supported the development of 
the sophisticated, complex, and computationally demanding, weather and 
climate models that serve as the basis for weather and climate 
information. For the most part, these are operational and certainly 
resource-intensive activities. Further, the government has provided the 
support for long-term research and observational system investments 
that will ultimately lead to improved understanding of climate and 
provide for the basis for new and better products, products that are 
still many years from being commercially viable.

    Question 5. While climate mitigation is essential, I think there 
needs to be a much more serious discussion on our Nation's plan to 
adapt to climate change. In your opinion, what are some of the most 
common and likely mistakes our communities and government will make in 
the coming years if we don't have the climate information and 
adaptation measures needed to avoid poor long-term decisionmaking? 
Aren't climate adaptation measures necessary to avoid making poor 
decisions on long-term infrastructure--poor decisions that can be both 
costly and dangerous? Without climate adaptation, don't we risk 
building a legacy of poor infrastructure decisions?
    Answer. The best way to answer your question might be to point out 
that climate adaptation will be a process rather than a one-time fix. 
The actual state of the climate will be a moving target that will be 
the result of the policy choices that are made regarding mitigation and 
the resulting levels of greenhouse gas concentrations in the atmosphere 
over the coming decades. In that sense, adaptation choices are not 
truly independent of our mitigation choices. Depending on greenhouse 
gas concentrations, the temperature and precipitation patterns likely 
will change gradually with time, with occasional periods of more rapid 
change being possible. At this point, we are fairly confident about the 
broad outlines of how climate will change, but we don't know the 
details. There much we need to learn. Various sectors will need to 
respond at quite different timescales, so for example, planning for 
water resources infrastructure generally is longer than for some 
decisions that will be made in the agricultural and forestry sectors.
    The most likely mistake that could be made by both communities and 
the government would be to adopt a ``one size fits all'' approach to 
climate adaptation. As noted above, there are a wide range of needs. 
Ideally, adaptation choices will have been made based on a regional, 
not just local, basis. Further, the strategies that are adopted must 
consider that the knowledge of climate is imperfect and so a range of 
climate scenarios should be considered. An equally likely and costly 
mistake might be to assume that that there will be no unintended 
consequences from our adaptation actions. Given these considerations, 
it is imperative that we continue to develop both a better 
understanding of climate processes and a set of tools that can 
comprehensively assess the likelihood of the outcomes for our 
adaptation (and mitigation) choices. Developing the kind of high 
resolution, complex climate prediction models and decision support 
tools that would allow us to assess the choices adequately is within 
the realm of possibility, but not yet in our grasp. That capability 
will require investment in further research.
    With regard to major infrastructure planning, there are many 
factors that must be taken into account. Human success is in part due 
to our ability to adapt to changing circumstances, and as we plan for 
long-term infrastructure investments, making sure our infrastructure is 
designed not only for today but the future is critical. Infrastructure 
choices are, in fact, part of adaptation, but the decisions should 
always be informed by the best science possible. As noted in my 
testimony, we are at a point where that science must include both the 
natural and social sciences. In addition, NSF supports research in the 
science of decision-making under conditions of uncertainty. Decision-
makers normally must make choices with either imperfect or inadequate 
knowledge. This scientific research area seeks to identify ways to 
reduce risk in decisionmaking and improve potential outcomes. We see 
this as a key decision support tool. Certainly anything that can be 
done to better inform infrastructure decisions--both having better 
estimates of the likely evolution of the climate (and other factors) as 
well as procedures for reducing risks--will reduce the possibility of 
making poor choices.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Katharine Jacobs
    Question 1. Particularly in the field of renewable energy, new 
companies are emerging that want to provide climate data services for 
the private sector. For example, a company in my home state of 
Washington called 3TIER has set out to provide climate and weather data 
for wind, solar, and hydro power energy providers. In your opinion, 
where should the line be drawn between the climate services the Federal 
Government should provide and the services that the private sector 
should be providing? As we move forward with more sophisticated 
government climate services in the future, what steps should we take to 
make sure that we are not unnecessarily expanding into areas that are 
most appropriate for the private sector?
    Answer. I am familiar with 3TIER, two of my colleagues are in that 
group, and they are very talented. In my opinion, the Federal 
Government should provide climate information for a broad range of 
audiences. If particular industries want information that is more 
tailored to their location or their specific decision processes, that 
is an appropriate place for the private sector to step in. There are 
many reasons why the government should engage in providing climate 
services. One is to provide equitable access to information. If all of 
these services were only available if paid for, then those who may need 
it most, the economically disadvantaged, may have the least access to 
it. A second reason is that provision of climate information is 
directly related to health and welfare. If this information is only 
available through the private sector, then the profit motive controls 
information that could be of critical importance to saving lives and 
property. In addition, much of the climate observing system was paid 
for with taxpayer dollars. They have a right to some sort of return 
from that investment.
    I believe that we can use considerations such as equity, national 
security, health and welfare, and return on investment as guidance in 
determining whether the Federal Government should engage in providing 
services.

    Question 2. While climate mitigation is essential, I think there 
needs to be a much more serious discussion on our Nation's plan to 
adapt to climate change. In your opinion, what are some of the most 
common and likely mistakes our communities and government will make in 
the coming years if we don't have the climate information and 
adaptation measures needed to avoid poor long-term decisionmaking? 
Aren't climate adaptation measures necessary to avoid making poor 
decisions on long-term infrastructure--poor decisions that can be both 
costly and dangerous? Without climate adaptation, don't we risk 
building a legacy of poor infrastructure decisions?
    Answer. There is much more information needed for good adaptation 
decisions, particularly in designing infrastructure that will be robust 
in the context of more extreme events, both flood and drought. In the 
short term, it is the capacity to deal with extreme events that is 
lacking, especially in light of the very poor condition of all 
infrastructure in this country--water and wastewater infrastructure, 
transportation, etc. I would anticipate the greatest danger in the 
short term comes from poor management of floodplains and from coastal 
storm surges. Climate adaptation does require that we re-examine the 
engineering standards that are used in designing infrastructure. 
Especially in light of the stimulus package, it is important that these 
standards be revised quickly to avoid maladaptive investments. We do 
risk building a legacy of poor infrastructure that may last 50 years or 
more if we do not take changing climate conditions into account.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Mark Warner to 
                               Frank Alix
    Question 1. Carbon sequestration holds promise and we are gaining 
certainty, through demonstration projects like yours, about how to 
control the risks involved with the process. Can you briefly tell us 
the genesis of your ECO<INF>2</INF> capture process and how it will 
lessen risks when transferring from smaller projects to a commercial 
scale capture and sequestration plant?
    Answer. Our ECO<INF>2</INF> capture process was initially developed 
in conjunction with U.S. DOE's National Energy Technology Laboratory 
(NETL), which had performed some of the pioneering research on 
CO<INF>2</INF> capture with ammonia. We jointly developed 
ECO<INF>2</INF> with NETL under a cooperative research and development 
agreement (CRADA).
    In order to reduce risks associated with commercial-scale CCS 
projects, we designed our ECO<INF>2</INF> pilot test facility using the 
same type of equipment we plan to use in larger, commercial-scale 
systems. This eliminates most of the risk associated with building 
commercial scale systems, as all of the equipment needed for these 
systems has been demonstrated on our pilot unit and is already 
commercially proven at scale (the innovation in ECO<INF>2</INF> is in 
its process chemistry).

    Question 2. Many power companies use coal to generate electricity 
because it is less expensive than natural gas. How will the additional 
cost of carbon sequestration impact the economics of coal as a 
competitor to natural gas?
    Answer. CCS would add significant costs to coal-fired electricity 
generation, on the order of 3 to 4 cents per kWh. This would make coal-
fired generation less competitive with gas. However, assuming the price 
of CO<INF>2</INF> emission allowances rises to $30-40 per ton, there 
would also be a cost impact on gas-fired generation as it emits about 
half as much CO<INF>2</INF> as a coal plant (therefore the equivalent 
cost impact on gas-fired generation would be 1.5 to 2 cents per kWh). 
In this scenario, based on projected future prices for coal and natural 
gas, coal would remain the low cost electricity source when compared to 
gas.

    Question 2a. What types of coal have been used in your carbon 
sequestration process? How do various coal types impact the economics 
of your process?
    Answer. Our carbon capture process has been tested on a blend of 
bituminous and subituminous coals. However, we do not expect the type 
of coal to have any impact on our CO<INF>2</INF> capture performance. 
ECO<INF>2</INF> should perform equally as well for all coal types. The 
two factors that will affect CO<INF>2</INF> capture costs are plant 
efficiency (higher efficiency yields less CO<INF>2</INF> per kWh, means 
reduced costs) and new versus retrofit (retrofit costs will be higher 
than new plants).

    Question 3. How clean and energy efficient is your ECO<INF>2</INF> 
process? Would you describe how your process affects the amount and 
sanitation of the water used, and how much energy is saved or spent 
overall using your technology?
    Answer. Our CO<INF>2</INF> capture process does not consume water 
except as needed for cooling, and processes exist which can provide the 
necessary cooling without water use (i.e., air coolers). If cooling 
water is used, its quality should remain unaffected as cooling water 
would be contained in a closed system and not come in contact with 
process gas or liquids.
    Our ECO<INF>2</INF> process is expected to require 15-20 percent of 
the net power output from a new, supercritical coal-fired power plant 
to capture and compress 90 percent of its CO<INF>2</INF>. For retrofit 
of an existing coal-fired power plant, the energy cost is expected to 
be 20-25 percent.

                                  <all>

</pre></body></html>
